<html>
<title> - SAFETEA: REAUTHORIZATION OF SURFACE TRANSPORTATION PROGRAMS</title>
<body><pre>[Senate Hearing 108-350]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-350

      SAFETEA: REAUTHORIZATION OF SURFACE TRANSPORTATION PROGRAMS

=======================================================================

                                HEARING

                               before the

           SUBCOMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                                 of the

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 20, 2003

                               __________

                                   ON

                                S. 1072

  A BILL TO AUTHORIZE FUNDS FOR FEDERAL-AID HIGHWAYS, HIGHWAY SAFETY 
         PROGRAMS, AND TRANSIT PROGRAMS, AND FOR OTHER PURPOSES

  Printed for the use of the Committee on Environment and Public Works


92-374              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                      one hundred eighth congress
                             first session

                  JAMES M. INHOFE, Oklahoma, Chairman
JOHN W. WARNER, Virginia             JAMES M. JEFFORDS, Vermont
CHRISTOPHER S. BOND, Missouri        MAX BAUCUS, Montana
GEORGE V. VOINOVICH, Ohio            HARRY REID, Nevada
MICHAEL D. CRAPO, Idaho              BOB GRAHAM, Florida
LINCOLN CHAFEE, Rhode Island         JOSEPH I. LIEBERMAN, Connecticut
JOHN CORNYN, Texas                   BARBARA BOXER, California
LISA MURKOWSKI, Alaska               RON WYDEN, Oregon
CRAIG THOMAS, Wyoming                THOMAS R. CARPER, Delaware
WAYNE ALLARD, Colorado               HILLARY RODHAM CLINTON, New York
                Andrew Wheeler, Majority Staff Director
                 Ken Connolly, Minority Staff Director
                              ----------                              

           SUBCOMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                     CHRISTOPHER S. BOND, Chairman
JOHN W. WARNER, Virginia             HARRY REID, Nevada
GEORGE V. VOINOVICH, Ohio            MAX BAUCUS, Montana
LINCOLN CHAFEE, Rhode Island         BOB GRAHAM, Florida
JOHN CORNYN, Texas                   JOSEPH I. LIEBERMAN, Connecticut
LISA MURKOWSKI, Alaska               BARBARA BOXER, California

                                  (ii)




                            C O N T E N T S

                              ----------                              
                                                                   Page

                              MAY 20, 2003
                           OPENING STATEMENTS

Baucus, Hon. Max, U.S. Senator from the State of Montana.........     6
Bond, Hon. Christopher S., U.S. Senator from the State of 
  Missouri.......................................................     4
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..    19
Chafee, Hon. Lincoln, U.S. Senator from the State of Rhode Island    20
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     1
Jeffords, Hon. James M., U.S. Senator from the State of Vermont..    10
Murkowski, Hon. Lisa, U.S. Senator from the State of Alaska......    18
Reid, Hon. Harry, U.S. Senator from the State of Nevada..........     2
Thomas, Hon. Craig, U.S. Senator from the State of Wyoming.......     8
Voinovich, Hon. George V., U.S. Senator from the State of Ohio...    26
Warner, Hon. John W., U.S. Senator from the Commonwealth of 
  Virginia.......................................................     9
Wyden, Hon. Ron, U.S. Senator from the State of Oregon...........    21

                                WITNESS

Mineta, Hon. Norman Y., Secretary, Department of Transportation..    11
    Prepared statement...........................................    27
    Responses to additional questions from:
        Senator Baucus...........................................    51
        Senator Carper...........................................    42
        Senator Cornyn...........................................    52
        Senator Jeffords.........................................    33
        Senator Reid.............................................    39
        Senator Voinovich........................................    47
        Senator Wyden............................................    53

                                 (iii)

  

 
      SAFETEA: REAUTHORIZATION OF SURFACE TRANSPORTATION PROGRAMS

                              ----------                              


                         TUESDAY, MAY 20, 2003

                                       U.S. Senate,
       Subcommittee on Transportation and Infrastructure,  
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:02 p.m. in 
room 406, Senate Dirksen Building, the Hon. Christopher S. Bond 
[chairman of the subcommittee] presiding.
    Present: Senators Bond, Thomas, Chafee, Reid, Baucus, 
Carper, Wyden, Jeffords [ex officio] and Inhofe [ex officio].

 OPENING STATEMENT OF HON. JAMES M. INHOFE, U.S. SENATOR FROM 
                     THE STATE OF OKLAHOMA

    Senator Inhofe. The hearing will come to order.
    Senator Bond has been delayed. He has indicated for us to 
go ahead and get started.
    I look forward to hearing testimony from my former 
colleague, Secretary Mineta. He and I served together for 8 
years in the House. I want my Democratic friends to hear this. 
I was so close to Congressman Mineta that I even attended his 
fund raisers back when he had Republicans who were running 
against him. I was delighted to find out that you had accepted 
this appointment. You have done a great job.
    I will say the same thing about Mary Peters. I believe that 
you are not testifying today. When we had our problem with the 
I-40 bridge collapsing, she was there hours afterwards. 
Everything went like clock work. We have a great team.
    S. 1072, SAFETEA, does do a good job of building on many 
key elements of ISTEA and TEA-21. In particular, I am pleased 
with your efforts in creating increased flexibility for the 
States by eliminating most of the discretionary highway grant 
programs, thereby making these funds available to the States 
through the core formula grant programs.
    As a former mayor and State legislator, I understand the 
frustration of State officials in Washington who dictate to 
them how to spend their money. Your proposal continues to build 
on a very important principle.
    I also appreciate the effort you made in addressing a 
concern that has been expressed by this committee on several 
occasions, that being improvement in project delivery or 
environmental streamlining. That is very important to us. Your 
ideas are certainly a starting point for the committee's 
further discussion on this important issue.
    Finally, on an issue that we have heard so much about 
during our hearings last year on safety puts some very 
interesting ideas on the table with respect to freight movement 
and the need to use innovative financing to address the 
increasing demand that freight puts on the transportation 
infrastructure.
    In the 107th Congress I joined Senator Bob Smith in 
introducing a private activity bond proposal. I am pleased to 
see that you included private activity bonds as a possible 
financing tool available to States and local governments. 
However, I am not satisfied with the level of funding, as we 
discussed before. The primary purpose of Federal spending, in 
my opinion, No. 1, is for national defense, and No. 2, on 
infrastructure.
    As much as it pains me to say this, I believe that SAFETEA 
does not provide sufficient funding to maintain our nation's 
infrastructure, much less improve it. The Federal Highway 
Administration's recent 2002 Status of the nation's Highways, 
Bridges, and Transit Conditions and Performance Report states 
the following:
    ``Maintaining the overall conditions in performance of 
highways and bridges at current level would require 
significantly more investment by all levels of Government. The 
average annual investment needs to be 17.5 percent higher.''
    Again, the report goes on to say that we do need to have 
what I believe is more than is being presented to us today. We 
are looking forward to hearing your testimony and to working 
with you so that we can come out with a real good bill.
    Thank you, Mr. Chairman.
    Senator Bond. Thank you, Senator Inhofe. My apologies for 
arriving late. I am moving a little slower, not due to 
congestion but to operations. I appreciate your being here. I 
am going to defer to my colleague, the ranking member on the 
committee, Senator Reid.

  OPENING STATEMENT OF HON. HARRY REID, U.S. SENATOR FROM THE 
                        STATE OF NEVADA

    Senator Reid. Thank you very much, Senator Bond.
    I also want to welcome my former colleague in the House, 
Senator Mineta, and my neighbor from Arizona, Mary Peters, to 
the committee.
    As we meet today, we are preparing for a summer full of 
challenges and opportunities as we face reauthorization in the 
nation's surface transportation program. The Administration's 
reauthorization proposal is an important part of this process. 
I agree with the Secretary's testimony, which I have reviewed, 
that transportation has an enormous impact on the economy and 
our quality of life. And that is an understatement.
    I have always been a proponent of infrastructure investment 
and economic stimulus and the jobs it creates. Prior to 9/11 I 
had legislation that had been unanimously approved by the 
National Council of Mayors. It was moving right along which 
would have had an infrastructure development program for this 
country.
    I am impressed every time I recognize that for every 
billion we spend on transportation infrastructure we create 
47,000 well-paid jobs. TEA-21 reauthorization represents a 
tremendous opportunity for us to impact our economy in a 
meaningful lasting way. Unfortunately, the Administration's 
reauthorization proposal does not take full advantage of this 
opportunity. While the bill continues the spirit of its 
predecessors, ISTEA and TEA-21, the bill is woefully under 
funded. The Administration bill takes the important first step 
of identifying problem areas, such as safety and congestion, 
but then fails to provide the necessary resource to make a real 
and substantial impact in these areas.
    Despite a reduction of the fatality rate over the last 
decade, far too many people die in traffic accidents each year. 
A disproportionate share of these fatalities is on rural roads. 
Congestion continues to plague our major metropolitan areas, 
causing millions of Americans to lose billions of dollars in 
lost time and productivity while they sit in traffic.
    Adequately addressing these problems will require a 
substantially more Federal investment than the Administration 
appears willing to make in its reauthorization proposal. This 
bill's proposed funding system does not come close to meeting 
the Administration's own cost estimates for system maintenance, 
let alone system improvements. The Administration's bill also 
would modify certain environmental provisions and project 
permitting requirements. TEA-21 and its predecessor prove that 
we can advance our national transportation goals while 
preserving the environment.
    I will not support any provision that undermines essential 
environmental protections. We can increase investment in and 
improve our nation's surface transportation system in a timely, 
thoughtful, and effective way without jeopardizing the 
environment. I repeat that a strong twenty-first century 
economy requires a well-maintained, well-operated national 
surface transportation system. The still lagging American 
economy needs a stimulus in jobs created by sustained robust 
investment in this system. This investment will benefit every 
business, large and small, and improve the quality of life for 
every American.
    Let me just say that I look forward to working with the 
distinguished chairman of this subcommittee, Senator Bond, who 
has had experience as Governor of one of the largest States we 
have in the union, and who understands the importance of this 
legislation.
    I, of course, also recognize, seated to my left, Senator 
Baucus, who has been chairman of this committee, and was 
responsible for helping usher in the last two transportation 
bills we have. He has wisdom and has helped in working this 
bill through the Congress this year. Hopefully we can do it 
this year.
    Thank you, Mr. Chairman.
    Senator Bond. Thank you very much, Senator Reid.
    I thank my colleagues for their comments. I share those 
views.
    We are supposed to have a vote at 2:20 p.m. I am going to 
suggest to the chairman of the full committee that we go over 
and catch the first of that vote. We will try to keep this 
going as long as we can, so we will not have any unnecessary 
interruptions. I ask that the members either go early and come 
back, or go over late.
    I do want to add a few things.
    Senator Baucus. Mr. Chairman, at some point I would like to 
give a statement. When would be an appropriate time?
    Senator Bond. Right after my statement.
    Senator Baucus. That would be fine.

  OPENING STATEMENT OF HON. CHRISTOPHER S. BOND, U.S. SENATOR 
                   FROM THE STATE OF MISSOURI

    Senator Bond. We will certainly entertain your statement.
    I want to thank the Secretary of Transportation, Norman 
Mineta, for being here today. We appreciate very much your 
bringing a copy of the bill. We have had a bootleg copy of it 
for some time. It is nice to finally have the version that OMB 
let out.
    As I indicated, in February when Federal Highway 
Administration Peters appeared before this subcommittee, I was 
very disappointed in what I view as the inadequate level of 
funding made available. The needs of Missouri fall in line with 
the Department of Transportation's Conditions and Performance 
Report, which estimates that the annual Federal investment in 
roads must increase by 17 percent per year simply to maintain 
the nation's existing highway and bridge system.
    Improving the system would require 65 percent more than is 
currently invested. Funding is going to have to be the greatest 
area of emphasis in the Senate if we are to achieve our goal of 
having a 6-year reauthorization package sent to the President 
prior to the September 30th expiration date.
    The funding levels assumed in your reauthorization proposal 
would make it impossible for our committee to draft a bill. For 
this reason, I, along with our chairman and ranking member, and 
the subcommittee ranking member, have already concluded that we 
will draft our bill at $255 billion, as supported by 79 
Senators during our debate on the Senate budget resolution.
    I am pleased that the Administration's draft include 
spending down the Highway Trust Fund balances, sparring 
economic growth through additional revenue. I believe that we 
must spend the balances down even further over the life of the 
next authorization to create even greater revenue and jobs.
    Two-lane roads with traffic for the interstate are our 
major killers. That is a fact of life in Missouri. If you talk 
about safety, I can show you the white crosses where somebody 
came across a center line on a two-lane highway. They are all 
over our State. Wherever we are. We do not have to go far to 
find one.
    Your proposal continues what I, along with the Senator 
Chafee referred to as the Bond-Chafee Revenue Aligned Budget 
Authority, RABA, proposal. I look forward to working with the 
Administration and this committee to refine the ups and downs 
we have seen through RABA and TEA-21.
    With the shortfalls of funding in many States throughout 
the Nation, the provision to toll the interstate is a tool 
which I think is appropriate to have in these fiscally 
constrained times. Our States need to be able to add additional 
capacity. It appears to me that toll financing is the best 
alternative way to enable cash-strapped States to do so.
    We have heard in testimony by the Administration that 
nearly 43,000 people are killed on our highways and roads each 
year. The Administration has proposed a new safety core 
program, and even entitled its reauthorization package to 
continue their commitments to our motoring public safety.
    I am glad the bill reflects our continued commitment, 
making not only investments in infrastructure, but also to the 
general safety and welfare of our constituents. There have been 
many discussions regarding the State infrastructure bank 
program. I, too, am happy to see that the Administration is 
proposing to continue with the current program as it was 
authorized in TEA-21.
    I understand that of the five States authorized in TEA-21, 
only my State, Missouri, as well as Florida, have agreed to 
utilize the funding from TEA-21, and are doing very well with 
their infrastructure bank program. Even though the 
Administration's draft suggests that these two States would 
likely be accepted as pilot States under the Secretary's 
criteria, I intend to propose that they be allowed to continue 
in the same positive manner in which they have operated over 
the previous 6-year authorization.
    Research is an area which is very important to our national 
interest in maintaining our position and providing cutting edge 
technology. The University Transportation Centers, or UTC 
programs, provide necessary dollars to this mission in the area 
of higher education. I am pleased that the University of 
Missouri at Rolla was recognized as a UTC to address national 
needs in the areas of transportation infrastructure, focusing 
on advanced materials and nondestructive technologies, or NDT.
    This involves: One, development, understanding, 
manufacturing, and use of new, more durable construction 
material and NDT methods. Two, installation processes and 
engineering designs. Three, monitoring and evaluation of new 
and repaired structures. Four, standardization and code 
approval of products and design protocols. And, five, education 
and technology transfers.
    We certainly want to make sure that we have universities 
involved in transportation research. The Administration's bill 
contains several environmental provisions as well. Stakeholders 
on all sides of the issues tell us that improvements are needed 
in the way we develop and review projects and protect air 
quality from new and existing projects. The committee is 
working with groups as diverse as road builders, environmental 
advocates such as Environmental Defense and NRDC, State air 
agencies, State transportation agencies, metropolitan planning 
organizations, conservation advocates, and managed growth 
proponents.
    We are working to draw ideas from all stakeholders and 
their proposals. We hope to find a balanced approach that will 
produce better transportation projects delivered on time and 
under budget. We will also ensure a conformity process that is 
more efficient and less burdensome, and does more to encourage 
air quality improvements and is equally protective of air 
quality.
    Unfortunately, there are a number of proposals in the bill, 
however, that I cannot support. While we face a number of 
complex challenges with the movement of freight, I do not think 
we should be using highway dollars to help facilitate the rail 
industry. The Administration bill proposes a new freight 
transportation gateways program which will allow the use of 
surface transportation program dollars, as well as national 
highway system dollars. This means less dollars for our roads, 
despite the ever growing number of needs identified in the 
Conditions and Performance Report by the Federal Highway 
Administration. I am pleased, at least though, that the 
Administration does not include the Highway Trust Fund dollars 
for passenger rail or Amtrack. As I stated earlier, I am glad 
that we received the Administration's bill and moving forward 
with reauthorization.
    We have our work cut out for us in drafting a proposal even 
at the higher level of $255 billion. The Senate number is 
really $231 billion for highways as identified in the final 
budget resolution. While $231 billion for highways is higher 
than what you proposed today, it will be difficult to address 
all the various issues that members of this committee would 
like to see done in this reauthorization period without 
additional revenue.
    I look forward to working with the Administration to draft 
a bill that will improve the overall condition of our nation's 
highways and congestion. I look forward to your testimony.
    Senator Baucus, I would like to give you and Senator Thomas 
the opportunity to give opening statements before leaving for 
the vote. I recognize you.

  OPENING STATEMENT OF HON. MAX BAUCUS, U.S. SENATOR FROM THE 
                        STATE OF MONTANA

    Senator Baucus. Thank you, Mr. Chairman. Thank you for 
moving expeditiously on this bill. This is very important and I 
very much hope that we can get a bill passed this year and not 
have to resort to an extension of current law, but rather move 
and get a bill passed.
    Mr. Chairman, I would first like to welcome our friend, 
Secretary Mineta, a great public servant, whom we have known 
for a long time. I personally first met and worked with the 
Secretary when I was a member of the other body. I worked with 
him very well. In fact, I might say, Mr. Chairman, that we are 
both from that infamous Watergate Class. We are very proud of 
that. Atlanta is very proud of the contributions that 
Congressman Mineta made to that class, rising even further than 
most of us. I deeply appreciate all the work that you have 
done, Norm, in service to your country.
    The same goes for Mary Peters. She works very hard at the 
Federal Highway Administration. She does an excellent job, 
previously helping on the airline side of things and now with 
the highways as the FHA Administrator. I commend you, Mary, for 
all that you are doing.
    I know that both of you personally work very hard, and 
these programs mean a lot to you. You serve our country with 
the utmost conscientiousness and good faith. We appreciate that 
very much.
    I must say that I wish that we were meeting under happier 
times. I do not know anybody on this committee who agrees with 
your Administration's proposals. As you well know, they are 
dramatically under funded. There is no way in the world we can 
maintain a highway system at such low paltry levels as 
recommended by the Administration.
    As you well know, your Administration's own Conditions and 
Performance Report indicates that an annual investment of $75 
billion in highway and transit capital infrastructure is needed 
in order to begin to improve the condition of our nation's 
highways, bridges, and transit systems. The Administration's 
bill falls woefully short of that number, with $247 billion in 
funding over 6 years. That is $201 billion for highways and it 
calculates to about half on an annual basis of what the 
Department's own needs study recommends. It is extremely low.
    I must say, too, if we take a quick trip to the Bureau of 
Labor Statistics and look at their CPI inflation indicator, 
that says that TEA-21's $217.8 billion in authorization in 1998 
dollars would be only $246 billion in 2003 dollars. That is a 
net growth of $1.3 billion over 6 years in inflation-adjusted 
dollars, or just over one-half of 1 percent over 6 years on an 
annual basis. I calculate that to come out to an eight-
hundredth of 1 percent increase in real terms that the 
Administration is proposing in real terms. Clearly, for fuel, 
for contractors, asphalt, aggregate, equipment, salaries, 
overhead--you name it. It is going to be much more than eight-
hundredth of 1 percent annually.
    This is moving backwards very significantly. Frankly it is 
an embarrassment. It is an embarrassment for all of us here in 
the committee to receive a proposal by the Administration that 
moves so far backwards in terms of the needs that this country 
faces in its infrastructure.
    We all know that spending dollars for quality 
infrastructure increases the competitiveness of our country, 
enhances our productivity, and its jobs. In my State of Montana 
that is 11,000 jobs. You know the rule of thumb. One billion 
dollars translates into 47 million jobs. We get a little over a 
quarter of a billion. That translates to 11,000 jobs. Those are 
good paying jobs. That is desperately needed in my State.
    We in Montana are about 49th in per capita income. We are 
hurting. We are a very big State, the fourth largest in the 
Nation. We have more Federal highway miles per capita than any 
other State in the Nation. This is critically important. For 
the Administration to come up here and tell us that we are 
going to go backwards in real terms, just makes no sense 
whatsoever.
    I might also say, Mr. Chairman, I appreciate your words 
that this level is inadequate. Those are also the words of the 
chairman of the full committee. I believe they are going to be 
the views of virtually everybody in this committee.
    I want to help accommodate my good friend from Wyoming. I 
will not finish the rest of my statement except to say briefly 
that the addition of the two other categories, the basic core 
of five categories, is a mystery to me. Why we add off-the-
shelf or safety as a separate category is a mystery. We already 
have safety provisions very deeply imbedded in TEA-21, in the 
core programs already. The sixth category takes money away from 
the five core categories, as paltry as those are currently 
financed in the bill anyway. This just does not make any sense 
to me.
    The off-the-shelf makes no sense to me. What we are really 
trying to get at is streamlining generally and to make sure 
that these projects are not hung up. There are some projects 
off-the-shelf. I see no sense equating a separate category for 
off-the-shelf. Rather, our goal is to increase streamlining 
throughout all the core programs, not just the off-the-shelf.
    You know the history this committee has had with the 
Department. It has been very dismal, if I may be blunt. It is 
has been dismal because many times over the years we have asked 
the Department to come up with some meaningful environmental 
streamlining. The Department has come back with the most 
complicated charts I could ever imagine. They are the most 
complicated things I have ever seen.
    Many of us in the Senate believe it is important to direct 
the Department to come up with certain dates and deadlines by 
which decisions are made, and also to make DOT the lead agency. 
There is no lead agency now. This would also make it possible 
for States to be able to take over some significant aspects of 
the program. Your recommendation contains insignificant 
aspects.
    I am surprised, too, at the lack of creativity in 
financing. Why in the world you do not recommend interest on 
the Trust Fund go to the Trust Fund is beyond me. Why in the 
world do you not go further in addressing the fuel tax evasion? 
That is beyond me. Why in the world do you not address the 
ethanol subsidy now subsidized by the Trust Fund. It should be 
subsidized by the general fund. That is beyond me.
    The consequence of all that is very low funding 
recommendation which is way less than this country needs. It 
would be a very significant disservice to this country if this 
Congress were to adopt the Administration's proposal. We would 
be moving backwards.
    I hope very much that the Administration understands that 
as the Congress works to provide the correct and right levels 
of funding. The Administration has to work with us and not work 
against us.
    Thank you, Mr. Chairman.
    Senator Bond. Thank you very much, Senator Baucus.
    Senator Thomas?

 OPENING STATEMENT OF HON. CRAIG THOMAS, U.S. SENATOR FROM THE 
                        STATE OF WYOMING

    Senator Thomas. Thank you, Mr. Chairman. I guess we have 
all served together, Mr. Secretary, in the House. I will be 
very brief because I think you ought to have a chance to say 
something. I am pleased that you are here to talk about this 
important issue. Certainly all of us agree that more money 
needs to be available and we will find a way to do that. I hope 
that we can find more flexibility in the CMAQ program, or 
flexibility in general. States like Wyoming are much different 
than States like New York. We need to have some opportunities 
to do that.
    I would also be interested in the increase in the cost of 
the Administration which seems to be substantially higher. 
Since most everything has been said. We are anxious to hear 
from you and to move forward and put together a program that 
will fit throughout the country and will fit our budget, and we 
can do the things we hope to be able to do.
    Thank you very much for being here.
    Senator Bond. Thank you very much, Senator Thomas.
    I am now going to include in the record a statement by 
Senator Warner in which he raises some very useful points. I 
hope you will have an opportunity to review that. We certainly 
will consider it in this committee.
    [The prepared statement of Senator Warner follows:]

Statement of Hon. John W. Warner, U.S. Senator from the Commonwealth of 
                                Virginia

    Good afternoon, Mr. Secretary, I want to join my colleagues in 
welcoming you to the committee this afternoon to discuss the 
President's proposals for reauthorizing our nation's surface 
transportation laws.
    It was my privilege to work extensively with many of my colleagues 
on TEA-21 as the subcommittee chairman at that time. Today, I remain as 
committed today to ensuring that there is adequate funding to meet our 
surface transportation needs, to improving the safety of the traveling 
public, and to ensuring that our agricultural products and 
manufacturing goods can travel efficiently across this country.
    We look forward to learning of your proposals, and I certainly have 
a few ideas of my own. As you are well aware, many of us, including 
myself, have strong views about the funding level that is needed to 
maintain an adequate level of service on our nation's highways and 
transit systems. This is a matter that we will not resolve today, but I 
assure you that I want to have an open dialog with you and the 
Department as we continue to examine ways to ensure the viability of 
the Highway Trust Fund. I commend the Administration for'taking the 
initial step of allowing for the transfer of the 2.5 cents per gallon 
tax on gasohol to the Highway Trust Fund.
    Mr. Secretary, I want to be clear from the beginning, and I welcome 
the opportunity for further clarification, that I have strong concerns 
about two major policy issues in the Administration's proposals.
    First, current safety programs under the jurisdiction of the 
Environment and Public Works Committee are not continued which, in my 
view, takes us in the reverse, not forward, in our commitment to 
safety. We all know that excessive speed and aggressive driving coupled 
with the failure to wear a safety belt causes an intolerably high 
number of traffic deaths and injuries. For the first time in a decade, 
traffic deaths are on the increase. Alcohol remains a prevalent 
problem, particularly for teen drivers. We must ensure that States 
remain focused on these problems by funding programs that promote seat 
belt usage, and educate drivers of the dangers of drinking and driving. 
We must make every effort to have States enact a .08 BAC law, provide 
stiffer penalties for repeat drunk driving offenders, and enact laws 
prohibiting open alcohol containers in vehicles. For States failing to 
meet these minimum Federal standards, the current requirement to 
transfer a small amount of funding must be focused on addressing these 
problems, and not used for construction.
    Second, I, like so many others, am frustrated with the length of 
time it takes for a highway or transit project to make its way from the 
drawing board to construction. This deserves the time and attention 
that you have dedicated to this problem by reaching out to all 
interested groups. I am concerned, however, with the brief descriptions 
that I have seen about the significant changes proposed for Section 
4(f) and Section 106 of the Historic Preservation Act.
    This committee has a long history in ensuring that our nation's 
historic properties are protected under Section 4(f). This is not a 
duplicative process, but one that compliments Section 106 reviews. It 
allows transportation projects to proceed when it has been demonstrated 
that there are no other prudent and feasible alternatives. Historic 
properties are an important means of telling our nation's history. They 
are our outdoor classrooms for students and living treasures to our 
past. I remain committed to ensuring that the preservation of our 
historic homes, structures, battlefields and open spaces remain on an 
equal footing with the ever-increasing demands for transportation 
construction.
    Mr. Secretary, we are at the beginning of a long process today. We 
share many of the same goals and I know that by working together we can 
develop a sound national policy that reduces traffic deaths and 
injuries, promotes construction while preserving historic sites, 
reduces congestion, improves air quality and finances a transportation 
system that continues to contribute to the overall health of our 
national economy.
    Senator Bond. The committee will stand in recess for the 
vote.
    [Recess.]
    Senator Bond. Ladies and gentlemen, we will reconvene the 
hearing.
    We turn to the ranking member of the full committee, 
Senator Jeffords.

OPENING STATEMENT OF HON. JAMES M. JEFFORDS, U.S. SENATOR FROM 
                      THE STATE OF VERMONT

    Senator Jeffords. Thank you, Mr. Chairman.
    First of all, I want to tell Secretary Mineta how proud I 
am to be with him today. I think this has already been 
mentioned, but I was one of those few that survived from the 
Republican times in the election of 1974. We became good 
friends then, and got a lot of good legislation done. It has 
been harder since then. I enjoy working with you. You are quite 
a help to us all. I appreciate your being here.
    I thank Senator Reid for convening today's hearings and the 
Administration's proposal to renew the nation's surface 
transportation program. I welcome my friend, Norman Mineta. 
Over the many months you have been true to your promise to work 
closely with the committee. I thank you for that.
    In the course of our hearings we heard from many of the 
nation's finest transportation minds. It appears, Norm, that 
you have also listened to the transportation experts. SAFETEA 
contained a number of policy recommendations that are national 
in scope. That is essential. Transportation is a national 
issue. It connects the Nation, it unites the Nation, and it 
must be viewed from a national perspective.
    Transportation is clearly our government responsibility. It 
provides the public framework from which our economy and our 
communities are built. Transportation spending is a powerful 
job creator. It stimulates hundreds of thousands of well-paying 
jobs. Transportation provides capacity for a global trading 
network.
    Our neighborhoods, our towns, our cities, and our 
metropolitan areas are formed and defined by the transportation 
system. In our hearings we learned that our current national 
transportation program is sound. The ISTEA policies and the 
TEA-21 funding guarantees work. We were advised to carry these 
ideas forward.
    Mr. Secretary, your bill reflects these same principles. 
But regrettably at $247 billion the proposal before us falls 
far short. The Secretaries of Transportation from the 50 States 
and DOTs have called for a $300 billion program. The cost to 
simply maintain our highway system is even greater. That is why 
I joined with my colleagues in the committee to commit $311 
billion to transportation spending, a 40 percent increase in 
the program. We are far from your proposal.
    As I said previously, I will not support an under-funded 
bill. While a short-term extension prevents problems, it is 
preferable to 6 years of under-investment. The need for 
investment is national.
    Every State in this country has aging roads and bridges in 
need for expanding capacity. I want to substantially increase 
the program. I want to distribute that increase in a manner 
that benefits all 50 States. With a 40 percent increase, every 
State should benefit. Our investment in transportation should 
enhance our environment.
    My record on clean air, clean water, and sound planning is 
clear. I will oppose any retreat in environmental protection. 
The current national transportation program, TEA-21, expires in 
just over 4 months. Today's hearing is an important milestone 
in our process. We will need to work diligently and 
cooperatively if we are to meet that deadline.
    Let me close by commending the Administration for its focus 
on safety. Today highway accidents are the No. 1 cause of death 
among Americans aged four through 33. These are our young 
people, our nation's most precious resource.
    I am heartened by your focus on safety. We talked a great 
deal about safety in both ISTEA and TEA-21. This time let's 
match this rhetoric with real spending. Mr. Secretary, I 
believe that we share a common national outlook. There are 
areas where we differ, but those differences can be bridged.
    I look forward to working with you and your capable staff 
on the renewal of the nation's surface transportation program. 
I thank Senator Bond very profusely for convening this hearing. 
It's a great time, a great place, and great witnesses.
    Thank you, Mr. Chairman.
    Senator Bond. Thank you very much, Senator Jeffords. We 
appreciate your words and also your bringing some interest to 
the testimony.
    I think there are no further statements to be had. We will 
turn finally to the Secretary of Transportation. Again, 
welcome, Mr. Secretary. We will make your full statement a part 
of the record. If you want to summarize or emphasize something, 
please do so.

 STATEMENT OF HON. NORMAN Y. MINETA, SECRETARY, DEPARTMENT OF 
  TRANSPORTATION ACCOMPANIED BY: MARY PETERS, ADMINISTRATOR, 
                 FEDERAL HIGHWAY ADMINISTRATION

    Secretary Mineta. Chairman Bond, Chairman Inhofe, Senator 
Jeffords, and members of the subcommittee, let me thank you 
very much for this opportunity to appear before you today to 
discuss the Bush Administration proposal to reauthorize our 
surface transportation programs.
    I want to also congratulate you, Senator Bond, on your 
recovery from your surgery.
    Senator Bond. I do yours as well, Mr. Secretary.
    Secretary Mineta. Thank you. Obviously after having gone 
for that vote and responded, you are doing the marathon mile 
very well.
    Before I begin, I would also like to introduce our Federal 
Highway Administrator Mary Peters, whom all of you know, who is 
going to be here to assist me with any details on questions 
that come up.
    Senator Bond. Welcome, Ms. Peters.
    Secretary Mineta. I would ask that my complete statement be 
inserted in the record in its entirety.
    Senator Bond. Without objection, so ordered.
    Secretary Mineta. Last week, as all of you are aware, I 
sent to Congress the Administration's reauthorization proposal, 
the Safe, Accountable, Flexible and Efficient Transportation 
Equity Act of 2003, otherwise known as SAFETEA. This 6-year, 
$247 billion proposal is the largest surface and public 
transportation commitment in American history, larger than 
ISTEA, and larger than TEA-21. But it builds on the successes 
of the landmark legislation, ISTEA, of which I was a principal 
coauthor during my days on the other side of this microphone in 
the other body, and its successor, TEA-21.
    I believe that this reauthorization proposal serves as a 
true blueprint for investment in our future, supplying the 
funds and the framework for needed investments to maintain and 
grow our national transportation system while protecting the 
environment for future generations of Americans.
    In addition, our proposed legislation places a central 
focus on transportation safety, as has been mentioned. Although 
we have made improvements in the rates of fatalities and 
injuries on our highways, the total numbers remain intolerable, 
and they are rising. In the year 2002, nearly 43,000 people 
lost their lives on our highways and our roads. These are 
numbers that I simply will not accept.
    That is why I have challenged the dedicated men and women 
of the Department of Transportation to dramatically reduce the 
number of injuries and fatalities on our nation's highways, 
starting right now.
    For the past year-and-a-half, this Department, with the 
critical and timely help of this committee, has dedicated 
itself to improving transportation security for all Americans.
    Faced with the scourge of terrorism, our Department 
responded by creating unprecedented partnerships with the 
private sector, Congress, interest groups, and Federal, State, 
and local agencies. Together we succeeded in decreasing the 
dangers of terrorism through new and better technology, more 
personnel, improved laws, and increased education.
    Mr. Chairman, we are going to do the same thing with car 
crashes. This year we are going to take the same passion, call 
on similar partnerships, and build the same record of success 
through enforcement, education, and engineering. Nothing would 
make a greater difference in reducing injuries and fatalities 
than to increase the use of safety belts everywhere in America. 
If safety belt use were to increase from the present national 
average of 75 percent to 90 percent, an achievable goal, 4,000 
lives would be saved each year.
    We have a moral as well as an economic obligation to 
immediately address the problem of transportation safety. The 
total economic impact of all motor vehicle crashes exceeds $230 
billion each year, a staggering figure. That is why President 
Bush and I have made saving lives an essential priority for the 
Department and for the reauthorization of TEA-21.
    Our bill would improve safety by creating a new core safety 
program, consolidating and simplifying the safety programs that 
are administered by NHTSA, and by providing new incentive 
bonuses to reward States that achieve demonstrable safety 
results. Enactment of this bill would be an important step in 
reducing highway fatalities and injuries and providing greater 
flexibility to State and local governments.
    Our nation's transportation system faces significant 
challenges in other areas as well, such as congestion, project 
delivery, freight movement, and intermodal connectivity. 
SAFETEA would create a safer, simpler, and smarter Federal 
surface transportation program by addressing transportation 
problems of national significance, while at the same time 
giving State and local transportation decisionmakers more 
flexibility to solve transportation problems in their 
communities.
    To accomplish all of these goals, SAFETEA calls for a 
record Federal investment in surface transportation spending 
over $201 billion on highway and safety programs, and nearly 
$46 billion on public transportation programs from fiscal year 
2004 through fiscal year 2009.
    I firmly believe that our proposal provides an excellent 
framework in which to tackle the surface transportation 
challenges that lie ahead. SAFETEA will help ensure needed 
repairs to our roads and bridges. It will ensure that new 
transportation projects are completed on budget and on time. It 
ensures the continued growth of our nation's economy without 
imposing costly new taxes.
    Mr. Chairman, I am proud to say that SAFETEA includes a 
strong program for protecting and preserving the environment. 
President Bush and I strongly believe that our nation can 
successfully improve the efficiency of transportation project 
delivery while maintaining the highest level of environmental 
protection. Doing so is a key priority for this Administration.
    That is why approximately 25 percent of our proposed $247 
billion in funding would be invested in programs that will 
protect the environment, such as reducing automobile emissions, 
expanding bicycle and pedestrian facilities, and promoting 
transit programs aimed at relieving congestion and reducing air 
pollution.
    SAFETEA will also continue the President's successful 
emphasis on environmental stewardship. Our proposal will 
significantly enhance the ability of Federal, State, and local 
agencies to reach agreements for moving forward on 
environmentally sound transportation projects, while quickly 
discarding those that would harm the environment.
    Our proposal funds our nation's transportation 
infrastructure needs in a fiscally responsible manner. SAFETEA 
continues the funding guarantees of TEA-21 that linked highway 
funding with transportation excise tax receipts and redirects 
the 2.5 cents per gallon of the general fund gasohol tax to the 
Highway Trust Fund. SAFETEA also improves highway 
infrastructure performance and maintenance by dedicating an 
additional $1 billion a year of Highway Trust Fund dollars over 
and above each year's estimated receipts into the Highway Trust 
Fund.
    Obviously, the total size of the program is, and will 
continue to be, a matter of debate. That debate, however, 
should not be permitted to cloud a meaningful and necessary 
discussion of the many programmatic reforms that are contained 
in SAFETEA. Moreover, any proposal that jettisons the important 
linkage between tax revenues and spending in an effort to 
achieve higher overall funding puts the landmark victory of 
guaranteed funding at risk.
    My written statement, which has been submitted for the 
record, as acknowledged by the chairman, contains a much more 
detailed explanation of the programmatic reforms that are 
included in our SAFETEA proposal. I hope that you will give 
these proposals serious consideration as the committee moves to 
develop its version of this legislation.
    I would like to conclude by stressing the fact that the 
Bush Administration is committed to securing approval of a 
multi-year authorization bill this year. I look forward to 
working with all of you, and with the Congress, to achieve that 
very important goal.
    Again, Mr. Chairman, thank you very much for having me here 
today. I look forward to answering your questions.
    Senator Bond. Thank you very much, Mr. Secretary.
    One of the items of interest that jumps out from your 
statement is this. A number of my constituents, at least, 
believe that the amount of money now set aside for rail highway 
crossings and hazard elimination, that the 10 percent satisfied 
is not adequate. There needs to be more funding. Apparently 
those have all been left out and transferred to this new safety 
category.
    How can we make sure that these previously identified 
priorities will not be overlooked or short-changed by the 
States and other implementing agencies?
    Secretary Mineta. One of the factors that we have built 
into this new legislation is that of flexibility. Again, the 
reason we have done that is to be able to allow State and local 
transportation leaders to be able to respond to the greatest 
needs in their own States and localities.
    By allowing these categories to be included in a block-
grant kind of approach, it will allow each State to be able to 
address their greatest needs in directing the financial 
resources to their areas. We did not want to retain a ``one-
size-fits-all'' kind of a program. This way we feel that there 
are some States with priorities that are greater than others in 
certain areas so they can direct their resources to those 
problem areas.
    Some States, as you have indicated, that have rail-highway 
crossings, will be able to direct those resources, where under 
categorical programs they would still be limited in terms of 
the amounts of moneys that are in each of the categories. This 
way, with the total funding in a block-grant approach, they can 
then exceed the prior funding under any categorical program.
    Senator Bond. Thank you, Mr. Secretary.
    You have mentioned that your goal for incentive grants is 
to get seatbelt usage up to 90 percent. I understand that the 
current seat belt usage is about 75 percent. Having had over my 
lifetime a little experience with human nature, what are the 
States going to be able to do with their incentive grants to 
get 75 percent up to 90 percent? It seems to me that that is 
going to require some kind of superhuman effort or a gun and a 
whip at every corner. How do you think that you can get from 75 
percent to 90 percent?
    Secretary Mineta. What we have done is to have incentive 
grants in the safety program. What we are trying to do is to 
encourage States to go from a secondary seat belt law to 
primary law. We know, through experience, that with the use of 
primary seat belt laws, that the usage goes up and in those 
States lives are saved.
    Senator Bond. Does the primary seat belt law get it up to 
90 percent?
    Secretary Mineta. In many instances, the States have 
attained 90 percent and those that have gone from secondary to 
primary, even though they may not be at 90 percent, have 
increased their usage substantially.
    What we have are incentive grants for States to go to 
primary laws. Then for the demonstrable results that they have 
from having primary laws, they would be able to also receive 
additional funding.
    Senator Bond. Thank you. Would you tell me how your 
streamline proposals will be able to spend project delivery 
while still protecting the environment and ensuring a thorough 
a rigorous NEPA process?
    Secretary Mineta. Well, there are many areas in which we 
have already starting doing this. As an example, whenever we 
have major projects that have been brought to the State local 
or regional office--let us say to the Federal Highway 
Administration--they will not only have a team that deals with 
the environmental laws and issues, at the same time there will 
be a Federal team starting to look at it. What we have had in 
the past is a sequential operation.
    The same thing will be done with the State environmental 
process where once the State completes its work, it will not be 
the Federal Government just starting theirs. Our Federal 
environmental process will start when the State is working on 
theirs. It will not be sequential, but concurrent. We will be 
able to reduce the time that we would otherwise be utilizing.
    Senator Bond. Thank you, Mr. Secretary.
    Senator Jeffords?
    Senator Jeffords. Mr. Secretary, at our hearing last year 
when I asked you about American's great rail systems to relieve 
highway congestion, you pointed to innovative financing as the 
way to get that job done. You referred me to the Alameda 
Corridor Project in California. I have looked into that project 
and found it to be innovative in a number of ways. It is a 
public/private partnership sponsored by a special purpose 
district that is collecting user fees to cover debt service.
    By separating grade crossings along a 20-mile stretch of 
track, the project has improved freight efficiency, relieves 
highway congestion, opened capacity for passenger rail, and 
helped to renew their surrounding neighborhoods. It is an 
intermodal success story.
    But I am not certain whether projects like Alameda will be 
eligible for funding under your proposal. Also, under your 
proposal it is unclear how future sponsors will retire the debt 
incurred through financing, or what revenue stream options are 
available. How does this proposal handle the Alameda-type 
projects at retirement and revenue stream options?
    Secretary Mineta. First of all, as you are very well aware, 
TIFIA currently is eligible only for public freight rail 
facilities. But what we have in this bill is a great deal of 
emphasis on intermodal connectivity. One of the things that we 
have in here is some provisions dealing with the freight and 
port connectivity, in order to be able to improve the 
productivity and efficiency along those major travel corridors.
    In terms of financing, besides TIFIA, which has always 
existed, we have State infrastructure banks. We also have this 
time a new category referred to as private-activity bonds. 
These are tax-exempt bonds. They are not under the cap of the 
State tax-exempt bond features.
    I think that the private activity bond is one that is going 
to enable many projects to be financed with this new 
instrument. We have the Department of Treasury's clearance on 
these private activity bonds.
    Senator Jeffords. Late last year I provided a paper to the 
Aiken Lecture Series at the University of Vermont on the 
advantages of hydrogen technology as a clean and renewable 
energy source for transportation. In that paper I highlighted 
the enormous potential benefits of this technology. It can be a 
totally renewable, never ending, cheap and powerful source of 
energy while at the same time saving the environment.
    Renewable hydrogen technology produces no acid rain, no 
ozone depleting chemicals, no climate change gas, no harmful 
pollution, and no dependence on imported fossil fuels. Over 
time it can become far less expensive than traditional oil-
based fuels.
    In his State of the Union address, the President called on 
over $1 billion in research funding so that ``American can lead 
the world in developing clean hydrogen-powered automobiles.''
    However, we must be clear that hydrogen will provide these 
benefits only if produced the right way. Hydrogen produced from 
the renewable energy sources, such as wind, solar, biomass, or 
geothermal energy will provide us with a clean energy future 
that we seek. Fuel-cell cars and trucks operating on hydrogen 
stored on board produce essentially zero pollution. The only 
byproducts are water and heat, as you know.
    The potential health benefits are staggering since 
currently motor vehicles' exhaust cause more air pollution than 
any other human activity. Even as far back as the 19th century, 
the most famous science fiction writer, Jules Verne, pointed in 
his book, The Mysterious Island, that water will be the coal of 
the future because water is composed of hydrogen and oxygen and 
will ``furnish and inexhaustible source of heat and light as 
long as the earth is inhabited.''
    Mr. Secretary, how does the Administration's bill address 
the significant need for research and development of hydrogen-
powered automobiles and trucks?
    Secretary Mineta. We have in our bill, I believe, $55 
million for hydrogen technology. What we are planning to do 
there is to work very closely with the Department of Energy. In 
my discussions with the automobile industry, it is not so much 
the development of the vehicle that will be the issue, it will 
really be the infrastructure of the fueling facilities 
nationally. That is going to be the issue that we are all going 
to have to address in terms of trying to advance hydrogen fuel 
or hydrogen technology.
    Senator Jeffords. Thank you, Mr. Chairman.
    Senator Bond. Thank you very much, Senator Jeffords.
    Senator Inhofe?
    Senator Inhofe. Thank you, Mr. Chairman.
    None of the five Senators were here during my opening 
statement so I am going to repeat one thing. I am going to be 
very complimentary of both the Secretary and the Administrator. 
Administrator Peters came out during the tragic collapse of the 
I-40 bridge just hours after it happened and worked closely 
with our people. I have never seen a job done better or faster.
    Former Congressman Mineta and I served together for 8 
years. I served under his leadership in the Transportation 
Committee. I am so pleased with the great job you are doing. I 
do remember, however, back during ISTEA when you were calling 
the shots and we were running it over there in the House. We 
were devising ways to try to get more money than came down from 
the Administration of George I.
    We are kind in the same situation right now where we feel 
that the funding is not adequate and we are in need. As I said 
in my opening statement, quoting from the report that we have, 
that the amount of money that we are talking about will just 
maintain what we have. I think it is a matter of being somewhat 
inadequate.
    What do you feel would be the cash balance in the Highway 
Trust Fund at the end of 2009 under SAFETEA? Not obligated, but 
just the cash balance.
    Secretary Mineta. I believe that was $18 billion. 2009 is 
$21 billion.
    Senator Inhofe. I thought it was considerably less than 
that.
    Secretary Mineta. That is including the transit account.
    Senator Inhofe. I believe I am correct in saying that it is 
$10 billion.
    Secretary Mineta. $9.9 billion in the highway account.
    Senator Inhofe. That is right. At the end of 2009.
    Now my question would be: Is that more than just a prudent 
balance at that time? Would you speculate on that?
    Secretary Mineta. What we were trying to do through the 
life of the authorization period was to make sure that we did 
not violate the Byrd rule. In order to have that head room 
under the Byrd rule, we wanted to make sure that we drew down 
against it.
    Senator Inhofe. That would be the unobligated.
    Secretary Mineta. What we did was to make sure that all the 
way through we were observing the Byrd rule.
    Senator Inhofe. I am sure that some of my colleagues are 
going to get into the funding, so I will not do that. In 
response to the question asked by Senator Bond about 
streamlining, I thought that language was good. There are so 
many safeguards in there. You outlined those again in response 
to the question of Senator Bond: Do you think that really 
accomplishes the level of streamlining that we need, still with 
all those safeguards that are in there?
    Secretary Mineta. Like you, I came from local government. 
If I had those kinds of flexible arrangements, I think we can 
make the dollars go farther and direct the resources to those 
areas that we think are the priorities of local government 
without having to be told where the money ought to be spent.
    Senator Inhofe. In my State of Oklahoma, and under the new 
PM<INF>.5</INF> standards it is going to put us in a position 
where it is going to be difficult in finding some of our rural 
areas out of attainment. Now, your CMAQ generally goes to your 
congested urban areas. Our concern is what can we do. Does your 
proposal offer some latitude to help us in those rural areas 
that are coming under what I consider to be an artificially low 
PM standards? Do you have any thoughts about that?
    Secretary Mineta. You are absolutely correct. CMAQ is not 
uniquely an urban program. The nature of the CMAQ program is to 
be able to have the program, or to have CMAQ to be used for air 
quality in rural areas as well.
    Senator Inhofe. It is. However, your funding mechanism is 
geared to the population. You do not have the population in 
those rural areas, but they still have that problem. I think we 
need to address. I know you are trying to do that. We are, too. 
We will be working together with you on that, Mr. Secretary.
    Secretary Mineta. We will be happy to work with you on 
that, Senator.
    Senator Inhofe. Thank you, Mr. Chairman.
    Senator Bond. Thank you very much, Senator Inhofe.
    I would submit for the record a statement by Senator 
Murkowski who conveys her regrets. She has a Commerce Committee 
hearing that is critical to the State of Alaska.
    [The prepared statement of Senator Murkowski follows:]
Statement of Hon. Lisa Murkowski, U.S. Senator from the State of Alaska
    Thank you, Mr. Chairman. I want to join the other members of the 
subcommittee in welcoming Secretary Mineta. I am very interested in his 
comments about this important legislation.
    As those who have visited Alaska know first-hand, and others have 
heard from all the members of the Alaska Delegation, my State lags far 
behind the rest of the Nation in surface transportation systems. 
Elsewhere in the United States, communities deal with substandard 
roads, or deteriorating highways, or congestion. In Alaska, it is 
literally not possible to drive to many communities. You cannot drive 
where there is no road.
    We Alaskans are pretty good at making do. In the winter, we use 
frozen rivers as roads, and in other seasons we travel and move our 
goods in boats, or in small aircraft, or on 4-wheelers. In fact, many 
of us enjoy the sense of being near the wilderness.
    But there is a devastating price to be paid.
    For most Americans, a serious injury means a quick trip to the 
nearest emergency room.
    For most Americans, a fire means calling the fire department, and 
with any luck, your life and property can be saved.
    For most Americans, buying groceries means deciding which 
supermarket has the best sales this week.
    For most Americans, looking for work means hopping in the car, or 
on the bus. But in much of Alaska, daily life is very different. And a 
big reason for that is the lack of even minimal transportation options.
    To be honest, I think the United States has made a huge mistake by 
not freeing Alaskans to contribute more to the national economy either 
by building a network of basic roads or by letting Alaskans build them 
as most of the country did with a minimum of interference from well-
intentioned but thoroughly stifling regulations.
    There are some things I very much appreciate in the 
Administration's proposed highway bill. For example, it provides the 
States with greater flexibility to move funding between certain 
categories of activity. That's both welcome and badly needed, as each 
of our States struggle with their own unique issues.
    However, I am disappointed in other aspects of the proposal. I do 
not think that it adequately recognizes the importance of the 
transportation system to the quality of life we seek to make available 
to every American, and the need for highway funding levels that respond 
adequately to the very real needs being felt in every State.
    We all recognize that congestion is a key issue for many of our 
roadways. And we all should recognize that traditional methods of 
dealing with congestion are not working very well.
    We all recognize that safety is a key issue. And we should all 
recognize that while encouraging seat belt use is laudable, it would be 
even more laudable if we took steps to reduce the potential for 
accidents in the first place.
    We all recognize the issue of ``road rage'' as one we need to 
address. And we should all recognize that we need to make greater 
efforts to eliminate the frustrations that cause it, as well as 
enforcing the law against those who experience it.
    I think we need to rethink our highway and highway-related 
programs. Rather than coerce States into uniformly required actions 
that ``big brother'' has decided are right for everyone, let's 
encourage States to take actions that are right for them.
    Maybe with all due respect to the American trucking industry and to 
the invaluable role it plays in our lives we need to find another way 
to move long-haul goods.
    Maybe we need to make it harder much harder for individuals to 
obtain driver's licenses by requiring improved training.
    And most of all, maybe we need to understand that training, 
enforcement, transit programs, and so forth are still only pieces of 
the puzzle. If the highway system is overextended, overcrowded, and 
over-frustrating, we will not be able to fix it by nibbling around the 
edges. This is not the place to cut costs or corners.
    Thank you, Mr. Chairman.
    Senator Bond. Now I call on Senator Carper.

 OPENING STATEMENT OF HON. THOMAS R. CARPER, U.S. SENATOR FROM 
                     THE STATE OF DELAWARE

    Senator Carper. Thank you, Mr. Chairman.
    Mr. Secretary, and Administrator Peters, we welcome you. It 
is good to see you both. We thank you for your stewardship and 
for your testimony today.
    I find that in the State of Delaware that TEA-21 is 
generally seen as a success. We want to applaud the 
Administration for recognizing this for a little State like 
ours and larger States as well. I want to also applaud you for 
offering a proposal that maintains many of TEA-21's best 
features while placing a new emphasis on improving safety.
    At the heart of TEA-21 has been its flexibility and 
substantial resources. It appears that these efforts are 
actually maintained, at least with respect to flexibility, to 
expand that flexibility and to simply program structures so 
that our State and other States can further direct and define 
the transportation systems that we need in our own locations. 
We thank you for that.
    I am going to ask you to take off your Secretary's hat, for 
a moment, if I could, and put on another hat. Maybe the hat of 
a mayor. We are both mayors. I am the Mayor of Wilmington or 
Delaware, and you are the Mayor of San Jose.
    Secretary Mineta. I was.
    [Laughter.]
    Senator Carper. I have never been mayor of either of those 
towns.
    Putting on that old hat of yours, what would you find in 
this proposal that would be especially welcoming, and maybe 
somewhat troubling?
    Secretary Mineta. Well, one of the things that I said early 
on, as we were starting to put the program together, is the 
whole idea of flexibility. It is to allow State and local 
leaders to be able to direct the resources to the problems that 
they face and that they are not bound by a categorical program 
that has this amount of money, when maybe the needs are this 
much.
    What we have done, in effect, is to move the programs from 
categorical to block grant type programs so that again the 
flexibility that was there in TEA-21 is even more broadened in 
SAFETEA. This way, instead of having categorical programs, you 
have them all in a block grant. Then they can direct their 
resources to where they feel their problems are.
    I think this takes the progression that we had from ISTEA 
to TEA-21, and now a step forward in SAFETEA.
    Senator Carper. When you hear from mayors across the 
country, or Governors for that matter, in response to what the 
Administration is laying out, what concerns seem to be echoed 
by a number of them?
    Secretary Mineta. Very succinctly--flexibility. They want 
to be able to direct their financial resources to where their 
programs are. This comes from my experience as mayor. During 
the Nixon Administration, San Jose was chosen as one of the 
communities to look at the whole idea of a block grant program. 
We were told to come up with a list of all the Federal programs 
that come to the city of San Jose, and outline what we needed. 
Then we would meet with the regional office in San Francisco, 
which we did.
    During the course of those conversations, I said that I 
needed something like $22 million for four community centers. 
They said, ``Well, we only have a total of $8 million. We will 
give you $4 million for one community center.'' Then later on 
they said, ``Why don't you think up $18 million of sewer grant 
programs.'' We had not submitted any money or an application 
for sewer grants.
    I said, ``Well, we do not need any sewer grant moneys. Why 
not give me that $18 million and I will build my community 
centers.'' But I could not do that under the categorical 
approach. That is why SAFETEA gives State and local community 
transportation leaders the flexibility to be able to direct the 
resources to where they have problems that they want to 
address.
    Senator Carper. My time has expired. I would like to add 
just one last quick point, Mr. Chairman.
    With respect to flexibility, I was always troubled as 
Governor of Delaware that our Federal transportation dollars 
that came to us, CMAQ money, for example, that we could use 
that money for congestion mitigation for freight railroads, or 
we could use that money for bicycle paths, or we could use that 
money for highways. But we could not use that money for 
passenger rail, even if that made sense in helping us to 
address our congestion mitigation issues. I hope that is one we 
could work on resolving at this time.
    Thank you, Mr. Chairman.
    Senator Bond. Thank you very much, Senator Carper.
    Senator Chafee?

OPENING STATEMENT OF HON. LINCOLN CHAFEE, U.S. SENATOR FROM THE 
                     STATE OF RHODE ISLAND

    Senator Chafee. Thank you, Mr. Chairman.
    Welcome, Mr. Secretary and Madam Administrator.
    My State benefits from the new Starts Transit Program. 
Under the proposal, the proposed TEA-21, the match is going 
from 80/20 Federal/State to 50/50. Do you think this will 
hinder transit?
    Secretary Mineta. Well, it was in ISTEA that I changed 
everything to 80/20 because highways was 90/10 and transit was 
75/25. People were making decisions based on where they would 
get the most money back. Naturally, that would be 90/10 
highway.
    In ISTEA I changed everything to 80/20 in order to make 
sure that transportation decisions were being made based on 
what was going to suit the community the best because both were 
80/20.
    Under continuing legislation, we have now found that even 
though the law is 80/20, that transit is probably somewhere 
again in the area of 50/50, and even highways is somewhere 
around 47/53, 47 being the Federal share. It has gotten to the 
point that because of the competitiveness by localities as they 
apply for funds, they want to make the best proposal put 
forward. The matching has been dropping by a great deal.
    We feel that even though we will be going to 50/50 in law, 
in the real world, it has already gotten to 50/50 in terms of 
the matching grants.
    Senator Chafee. As a follow up on that question, also on 
transit issues, the proposal removes the guarantee for about 
one-fifth of the transit account, forcing it to compete with 
the discretionary account. Could you explain why that is?
    Secretary Mineta. As you know, that percentage of the funds 
come from general funds, 19 percent, I believe. We were not 
able to get the guarantee that is in TEA-21 as it relates to 
the 19 percent coming from general funds to the transit 
account.
    Senator Chafee. Both of the questions are directed at what 
originally was trying to direct money toward more mass transit 
and away from roads, back in the original ISTEA. Do you sense a 
shift away from that commitment?
    Secretary Mineta. No, I do not. I see where most localities 
are finding that because of congestion, and because of air 
pollution, many communities are turning to transit.
    I think one of the good things that we have pioneered 
within the Federal Transit Administration under the great 
leadership of Jenna Dorn, is that instead of everyone having a 
light rail system which may be too costly and not efficient for 
that community, that we are starting with baby stages, like bus 
rapid transit. Then they would be able to graduate, as the 
ridership improves, to light rail, or to heavy rail.
    But in any event, what we are trying to do is to say, ``You 
do not have to go to a light rail system right away as a status 
symbol or as the only form of public transit.'' There are other 
ways that local communities can get there.
    Senator Chafee. Thank you, Mr. Secretary.
    Thank you, Mr. Chairman.
    Senator Bond. Thank you very much, Senator Chafee.
    Senator Wyden?

  OPENING STATEMENT OF HON. RON WYDEN, U.S. SENATOR FROM THE 
                        STATE OF OREGON

    Senator Wyden. Thank you, Mr. Chairman.
    I want to first tell the Secretary how much we appreciate 
his responsiveness. He is working with me right now on 
something involving Oregon. I appreciative of that.
    Secretary Mineta. Is that this weekend?
    Senator Wyden. We got it this weekend. We have a ways to 
go, but you have been very responsive. I appreciate it.
    Secretary Mineta. Good.
    Senator Wyden. I also want to commend Chairman Bond and 
Chairman Inhofe for their work on the funding question. Both of 
you have really done yeoman work on this issue. That is really 
the first issue I want to explore with you, Mr. Secretary.
    You say in your written statement that nothing has as great 
an impact on our economic development and quality of life as 
transportation. I did the math, and the increase in 
transportation funding that the Administration is seeking is 
one-twentieth the size of the tax cut proposal. That is the 
number that compares to the increase in transportation funding 
to the tax cut proposal.
    I am going to set aside the politics and not go any further 
with that. I will ask you how are we going to get this donor 
question resolved? This is something that Chairman Inhofe and I 
have a great interest in, when the level of funding is 
essentially stable. Set aside the comparison to other parts of 
the budget. It is something like $218 billion to $247 billion 
in terms of the funding increase. That is where you get the $30 
billion.
    I do not see how we are possibly going to get out this 
donor question that concerns people like Chairman Inhofe and 
myself, with that level of funding. Can you tell me what your 
sense is of how the Administration wants to get at that 
question?
    Secretary Mineta. Next question?
    [Laughter.]
    Secretary Mineta. Senator Wyden, you know how sensitive 
that whole issue of donor/donee is. What we have done is to 
retain the TEA-21 formula, and that is to guarantee the 90.5 
percent. There have been proposals like SHARE, and others that 
have come forward, but they are very costly in terms of, let us 
say, providing 95 percent return to the State of their excise 
tax receipts.
    What we have done is to frankly leave it in Congress' 
hands. We have continued the TEA-21 formula. If there are going 
to be any adjustments, we feel that ought to be Congress' 
responsibility.
    Senator Wyden. I think that a lot of us are very pleased 
that Chairman Inhofe is going to have it in hands. He has been 
very sympathetic to States like ours. But he has to have 
something to work with. That is why I am hoping that as we go 
forward we can still get some increases in these dollars.
    If you are going to get equity with respect to the donor 
States--and for years this has chaffed at the smaller States--
we have to have something that Jim Inhofe and others who have 
championed this cause can work with. I tried to set this in the 
big picture in terms of how transportation compares with other 
accounts. But somewhere along the way we are going to have 
address this.
    Secretary Mineta. I might add that the reality is that in 
the past there has been extra money that has been available to 
take care of any of the gross inadequacies of State 
allocations. I think in today's fiscal world, that does not 
exist. I recall in TEA-21 how all of you were able to make up 
the differences in different States. There was additional 
revenue that was coming in at the time of TEA-21. There were a 
number of holes that were filled up by the financial resources 
that were available.
    Senator Wyden. I have one last question, if I could, Mr. 
Secretary.
    Are you looking at any other proposals for new sources of 
funds, particularly the issue of bonds? This is something that 
I am particularly attracted to. I am anxious to talk with 
Chairman Bond and Chairman Inhofe about this. The State 
transportation officials, as you know, have outlined a proposal 
in this regard. Is that something that you are taking a look 
at?
    Secretary Mineta. In our proposal, of course, we have the 
State infrastructure banks. We have expanded TIFIA. We have 
reduced the threshold for TIFIA from $100 million projects down 
to $50 million. We have added a private activity bond, which is 
a tax-exempt bond. That tax-exempt bond will not be counted 
under the State tax exempt requirement. I believe that the 
private activity bonds will be an instrument that will be 
looked at by States for financing purposes.
    Senator Wyden. Thank you, Mr. Chairman.
    Senator Bond. Thank you very much, Senator Wyden.
    You might note that Missouri also is a donor State.
    Senator Thomas?
    Senator Thomas. Thank you, Mr. Chairman.
    I am from Wyoming. The Secretary knows a little about that. 
I would just say that some of our smaller population States 
with larger miles have a lot of people traveling on those 
highways. So there is some justification.
    You have talked a lot about flexibility. For a rural State 
like Wyoming, what would you say are the biggest benefits in 
this bill for States like Wyoming in terms of flexibility?
    Secretary Mineta. I think a lot of the legislation that we 
have, and programs that we have, probably are geared to urban 
areas. What we have here is the flexibility. Regardless of the 
size of the State or the density of population, or whatever it 
might be, that there is a great deal more flexibility that 
transportation leaders in those States and localities will have 
in being able to address the fiscal resources to the problems 
that they feel are important.
    It is not a cookie cutter approach that would apply in 
Wyoming, as it might in Connecticut, New York, or California. 
But each of the States would be able to pattern the program 
based on their needs.
    Senator Thomas. That is good. There are different needs, 
obviously, in Wyoming than there are in New York. It needs to 
be that way.
    This is titled, ``Flexibility and Efficiency.'' But I 
notice that the money set aside for administrative expense is 
approximately three times what it was before. How do you 
justify that?
    Secretary Mineta. I am not sure what you have in mind.
    Senator Thomas. This is the justification for the increase 
in administrative checkoff. If there is more flexibility and 
less regulation, why would you need more managers?
    Secretary Mineta. Because of the nature of the larger 
programs.
    Senator Thomas. I am pleased that we are moving forward on 
this bill. I know it is very difficult. We look forward to 
hopefully finding some additional funding.
    Thank you, Mr. Chairman.
    Senator Bond. Thank you very much, Senator Thomas.
    We have had the Secretary here for almost 2 hours. I am 
going to submit the rest of my questions for the record and ask 
that you respond to those.
    Several of the members may want to ask questions.
    Senator Jeffords. I have just one more, Mr. Chairman.
    Senator Bond. Mr. Jeffords?
    Senator Jeffords. The Administration's bill authorizes 
funding for surface transportation at $247 billion for highway 
and transit programs for 6 years. With this relatively modest 
growth in funding over TEA-21, the Administration had to make 
some difficult choices in how to best fund the core highway 
program.
    Could you explain how the Administration decided what 
levels and increases to propose for the core highway program? 
For example, why does CMAQ see a reduction of over $340 million 
in fiscal year 2004 compared with 2003? Why does this program 
also recover its 2003 funding levels after fiscal year 2005 and 
only grows to $1.6 billion in 2009?
    Secretary Mineta. First of all, in terms of CMAQ funding, 
the $10 billion for fiscal year 2004 through 2009 is a 9.1 
percent increase. This program is flat for the first year. Then 
it goes up for the remaining fiscal years.
    Senator Jeffords. Thank you. That is all I have.
    Thank you, Mr. Chairman.
    Senator Bond. Thank you, Senator Jeffords.
    Senator Carper, do you have further questions?
    Senator Carper. Thank you, Mr. Chairman.
    The question I wanted to ask the Secretary, if I could, 
deals with the adequacy of funding. Why are the funding levels 
that are found in SAFETEA below the minimum levels that are 
needed to maintain the current system that is recommended by 
the U.S. Department of Transportation's Condition and 
Performance Report?
    Secretary Mineta. I think there has to be some explanation 
about the Conditions and Performance Report. First of all, that 
is a snapshot of Federal, State, and local expenditures. It is 
not just Federal. It is over a 20-year period. People look at 
that report and they say, ``Look what the C&P Report says what 
your needs are.'' That does not directly relate to the annual 
expenditures under an authorization bill.
    That is for the purpose of looking at the adequacy or what 
the level of service of the roads, highways, and bridges is. 
But it is not directly related to the expenditures, whether it 
be under ISTEA, TEA-21, or in this case, SAFETEA. It is more 
than just Federal programs. It is more than just during a 6-
year authorization period. The figure that comes out becomes an 
average of a 20-year program.
    Senator Carper. When we spoke earlier, you spoke of the 
flexibility that is inherent within SAFETEA, and the advantage 
of States and communities. We appreciate that. I just want to 
echo the comments that we have heard from other of our 
colleagues on both sides of the aisle with respect to the 
adequacy of the resources.
    When I was Governor of Delaware, we sought on several 
occasions to increase the gasoline tax because we did not want 
to have to rely solely on debt to improve our transportation 
structure. We raised our gasoline tax by a small amount on one 
occasion. It was difficult to convince the legislature to raise 
them further in the 1990's when we were really awash in 
revenues. It was hard to explain why we should single out one 
user fee to raise, that is, the gasoline tax.
    Today we find ourselves trying to come out of a recession. 
There are any number of arguments that could be made that one 
of the best ways to help put people back to work is to hire 
them to improve our transportation infrastructure. I am one who 
believes that if programs are worth having, we ought to pay for 
them. If they are not worth having, then we should not have any 
of them. I am a pay-as-you-go kind of Senator, and I was that 
kind of Governor and Congressman.
    I would also note that as we gather here today we are 
importing almost 60 percent of the oil that we use from abroad, 
and to the extent that we raise the price of gasoline by a 
nickel or so, I think it diminishes, at least a little bit, the 
laws of supply and demand and price elasticity. It reduces a 
little bit our desire to consume oil and maybe our willingness 
to look for more energy efficient ways to travel.
    The last question I would like to raise deals with Amtrak. 
I would not want to disappoint you and send you home without a 
question on Amtrak. This is the year that we have the 
opportunity to reauthorize highways, transit, aviation, and 
rail, including Amtrak.
    How do you think the Administration's plan for Amtrak, when 
it is unveiled, will fit in with SAFETEA? Are there specific 
programs in SAFETEA that you envision might dovetail with the 
Administration's proposal on reauthorizing Amtrak?
    Secretary Mineta. We are developing our Amtrak legislation 
right now. At this point I cannot say that it has dovetailed 
with SAFETEA. Last year I outlined the principles upon which I 
think Amtrak's reauthorization legislation should be based. I 
am hoping to possibly have that legislation ready for OMB's 
perusal in about a month.
    We cannot continue where we have been going for the last 30 
years. There are a number of reforms that are going to be 
needed. If there are going to be increased amounts of funds 
that are necessary, it is by all means going to have to require 
a great deal of reform by Amtrak.
    The Congress did pass in the appropriations bill some 
requirements in terms of Amtrak reporting to the Department of 
Transportation on certain requirements. Those detailed 
financial plans have been very informative to us in determining 
the funding for Amtrak as well as a basis for some of the 
reauthorization measures that we are now putting together.
    Those requirements that Congress imposed have been very 
helpful. We are building on those requirements that Congress 
imposed.
    Senator Carper. Mr. Chairman, in closing, I will just say 
we look forward to working with the Secretary and his 
Department, including some of the people sitting right behind 
him on just that subject in the months ahead.
    Thank you very much.
    Senator Bond. Thank you very much, Senator Carper.
    As a former fellow Governor, I am happy to extend the 
courtesy of one out-of-jurisdiction question.
    [Laughter.]
    Senator Bond. We have enough snakes in the barrel to handle 
on this one.
    Thank you very much, Secretary Mineta and Ms. Peters.
    This hearing is adjourned.
    [Whereupon, at 3:53 p.m., the subcommittee was adjourned, 
to reconvene at the call of the chair.]
    [Additional statements submitted for the record follow:]

 Statement of Hon. George V. Voinovich, U.S. Senator from the State of 
                                  Ohio

    Thank you, Mr. Chairman, for conducting this hearing today on the 
U.S. Department of Transportation's surface transportation 
reauthorization proposal.
    Secretary Mineta, welcome. I appreciate your coming here this 
afternoon to present the Administration's proposal. I am sure it has 
been difficult for you recently, but you are getting the job done, and 
the country is lucky to have people like you in public service.
    The purpose of this hearing is to determine whether the 
Administration's reauthorization budget proposal will be adequate to 
meet the nation's surface transportation needs over the next several 
years. It is no secret that the nation's transportation needs greatly 
exceed current investment at all levels of government. That is why I am 
especially concerned that under the Administration's proposal, highway 
funding would not even reach current spending levels until fiscal year 
2007.
    I am convinced that transportation investment creates jobs and 
would provide a much-needed stimulus to our sluggish economy. For 
instance, the U.S. Department of Transportation estimates that for 
every $1 billion in Federal spending on highway construction, 47,500 
jobs are created. It is also estimated that every dollar invested in 
the nation's highway system generates $5.70 in economic benefits due to 
reduced delays, improved safety, and reduced vehicle operating costs. 
That's nearly a 6 to 1 return on investment.
    A survey by the American Association of State Highway and 
Transportation Officials shows that State transportation departments 
have 2,710 highway and bridge projects, valued at over $17 billion, 
which are ready-to-go if funding were made available to them. My State 
of Ohio has 228 ready-to-go projects valued at $752 million.
    Mr. Chairman, Bureau of Labor Statistics show that average annual 
employment in highway construction is down nationwide, as much as 25 
percent from peak employment levels over the last 6 years. In Ohio, 
employment in highway construction is down 13 percent from 2000 and is 
at its lowest level in 6 years. For example, one of Ohio's largest 
construction companies recently told me that they have had to lay off 
450 employees due to a lack or projects out for bid.
    As a member of this subcommittee and its former chairman I am eager 
to work on the reauthorization of the surface transportation program. 
As Chairman of the National Governors Association, I was involved in 
negotiating TEA-21 and lobbied Congress vigorously to even-out highway 
funding fluctuations and assure a predictable flow of funding to the 
States. TEA-21 achieved this goal with record, guaranteed levels of 
funding. TEA-21), which increased by nearly 40 percent Federal 
investment in highways and transit. Under TEA-21, Ohio received a 23 
percent increase in transportation funding.
    TEA-21 also dedicated nearly all highway gas taxes to 
transportation funding and guarantees that States will receive at least 
90.5 percent of their share of their contribution to the highway 
account of the Highway Trust Fund. One of my top priorities for TEA-21 
reauthorization is to increase the minimum share for the 26 donor 
States to at least 95 percent. This increase in the rate of return 
would generate an additional $60 million or more in transportation 
revenues for the State of Ohio.
    Tomorrow, Senator Carl Levin and I, along with House Majority 
Leader Tom DeLay and Congressman Baron Hill will announce the 
introduction of our legislation to increase donor States' minimum rate-
of-return to 95 percent. Currently, there are over 120 cosponsors of 
the House bill and 18 cosponsors of the Senate bill.
    While TEA-21 has enabled States and localities to improve the 
condition of deteriorating and unsafe highways and to increase capacity 
and performance, the system is still aging, and in need of additional 
investment. However, I support the principle that the highway program 
is a fully user-fee based system that pays its own way. I am reluctant 
to borrow more money for highways.
    I am pleased the Administration's bill proposes that all revenue 
fromform gasohol taxes be deposited into the Highway Trust Fund rather 
than the General Fund of the Treasury, something many of my colleagues 
have asked for these last few years. I also understand the Finance 
Committee has proposed a way to resolve the remaining 5.2 cent per 
gallon ethanol tax incentive by no longer penalizing States that 
consume ethanol-blended fuel. These two solutions would increase Ohio's 
gas tax receipts by an additional $160 million annually.
    Mr. Chairman, another of my priorities for reauthorization is to 
enact an environmental streamlining provision which will actually 
expedite the project delivery process. I am disappointed with the 
implementation of the environmental streamlining provisions included in 
TEA-21, and I regret that we may have wasted an opportunity to realize 
the benefits of the expedited process that we envisioned 5 years ago.
    In addition, as Chairman of the Clean Air Subcommittee, I am 
looking closely at the provisions in the Administration's bill dealing 
with transportation conformity and the Congestion Mitigation and Air 
Quality Program (CMAQ). I am pleased to be participating in the 
discussions and drafting of these important planning and environmental 
provisions of the EPW Committee's reauthorization bill.
    Secretary Mineta, thank you for testifying this afternoon on the 
Administration's SAFETEA bill. Despite the lateness of the proposal and 
disappointing funding levels, I believe the Administration should be 
commended for developing a proposal that makes saving lives a top 
priority. A total of 8,417 people died on Ohio's highways from 1996 to 
2001. I hope over the life of the next reauthorization bill this figure 
can be substantially reduced.
    As a former Governor I believe States should have maximum 
flexibility to use their highway dollars to meet their own unique 
transportation needs. I am interested in hearing about the 
Administration's proposals that would allow certain States to use their 
highway funds as a block grant as well as proposals that would allow 
certain States to assume some of the responsibilities of the Secretary 
under Federal law to help streamline the project delivery process. Mr. 
Secretary, I know one State that could do the job.
    Again, thank you, Mr. Chairman, for holding this hearing. I look 
forward to working with you on reauthorization in the upcoming weeks 
and months on this reauthorization.

                               __________
    Statement of Hon. Norman Y. Mineta, Secretary of Transportation

    Chairman Bond, Senator Reid, and members of the subcommittee, thank 
you for the opportunity to appear before you today to discuss the 
Administration's proposal to reauthorize our surface transportation 
programs--the Safe, Accountable, Flexible, and Efficient Transportation 
Equity Act of 2003, or ``SAFETEA.''
    Nothing has as great an impact on our economic development, growth 
patterns, and quality of life as transportation. This is equally true 
at the national, State, and local levels. A safe and efficient 
transportation system is critical to keeping people and goods moving 
and cities and communities prosperous. Reauthorization will supply the 
funds and the framework for investments needed to maintain and grow our 
vital transportation infrastructure.
    In addition to improving the quality of our lives and enhancing the 
productivity of our economy, our proposed legislation seeks to place a 
central focus on transportation safety. Although we have made 
improvements in the rates of fatalities and injuries on our highways, 
the total numbers remain intolerable, and they are rising. In 2002, 
nearly 43,000 people lost their lives on our highways and roads. 
Families are destroyed and promise is lost.
    The economic costs are unacceptable as well. The total annual 
economic impact of all motor vehicle crashes exceeds $230 billion, a 
staggering figure.
    For these reasons, the President and I have made saving lives an 
essential priority for the Department and for the reauthorization of 
the Transportation Equity Act for the 21st Century (TEA-21). Nothing 
would make a greater difference in these numbers than to increase the 
use of safety belts everywhere in America.
    If safety belt use were to increase from the national average of 75 
percent to 90 percent--an achievable goal--4,000 lives would be saved 
each year. For every 1 percentage point increase in safety belt use--
that is 2.8 million more people ``buckling up''--we would save 250 
lives, suffer significantly fewer injuries, and reduce economic costs 
by hundreds of millions of dollars a year.
    We have a moral, as well as an economic, obligation to address 
immediately the problem of transportation safety. The Bush 
Administration is committed to reducing highway fatalities, and our 
bill offers proposals to increase safety belt use and to take those 
actions that can make the achievement of this goal possible.
    Our proposals include creation of a new core funding category 
dedicated to safety within the Federal-aid highway program. This new 
category will increase visibility and funding beyond the current safety 
set-aside provisions. We are also seeking to consolidate and simplify 
the safety programs administered by the National Highway Traffic Safety 
Administration (NHTSA). This proposal will enhance the capacity and 
flexibility of States to use Federal grants and their own funds to 
improve safety. Incentive bonuses will reward those States that achieve 
demonstrable safety results. Enactment of this bill would be an 
important step, we believe, in reducing highway fatalities and 
injuries, and providing greater flexibility to State and local 
governments to use these funds consistent with a comprehensive 
strategic highway safety plan.
    Our Nation's transportation system obviously faces significant 
challenges in other areas as well, such as congestion, timely project 
delivery, freight efficiency, and intermodal connectivity. Our proposal 
will create a safer, simpler, and smarter Federal surface 
transportation program by addressing transportation problems of 
national significance, while giving State and local transportation 
decisionmakers more flexibility to solve transportation problems in 
their communities.
    SAFETEA calls for a record Federal investment in surface 
transportation, spending over $201 billion on highway and safety 
programs, and nearly $46 billion on public transportation programs, 
from fiscal year 2004 through fiscal year 2009.
    These funding levels would be achieved by: 1) continuing the 
financial guarantees of TEA-21 that linked highway funding with the 
receipts generated by transportation excise taxes; 2) redirecting to 
the Highway Account of the Highway Trust Fund the 2.5 cents per gallon 
of the gasohol tax currently deposited in the General Fund; and 3) 
dedicating an additional $1 billion a year of Highway Trust Fund 
dollars over and above each year's estimated receipts into the Highway 
Trust Fund to improve highway infrastructure performance and 
maintenance.
    Thanks in large part to the hard work of many of you and your 
predecessors, SAFETEA builds on the tremendous successes of the 
previous two pieces of surface transportation legislation. Both the 
Intermodal Surface Transportation Efficiency Act of 1991 (ISTEA), a 
bill with which I am proud to have played a role, and TEA-21, provided 
an excellent framework to tackle the surface transportation challenges 
that lie ahead.
    ISTEA set forth a new vision for the implementation of the Nation's 
surface transportation programs. Among other things, ISTEA gave State 
and local officials unprecedented flexibility to advance their own 
goals for transportation capital investment. Instead of directing 
outcomes from Washington, DC, the Department shifted more of its focus 
to giving State and local partners the necessary tools to solve their 
unique problems while still pursuing important national goals. SAFETEA 
not only maintains this fundamental ISTEA principle, it goes further by 
giving States and localities even more discretion in key program areas.
    TEA-21's financial reforms have proven equally significant. By 
providing certainty, predictability, and of course, increased funding, 
TEA-21 paved the way for State and local transportation officials to 
undertake strategic transportation improvements on a record scale.
    TEA-21 achieved this by reforming the treatment of the Highway 
Trust Fund to ensure that, for the first time, spending from the 
Highway Trust Fund for infrastructure improvements would be linked to 
tax revenue. The financial mechanisms of TEA-21--firewalls, Revenue 
Aligned Budget Authority (RABA), and minimum guarantees--provided 
greater equity among States in Federal funding and record levels of 
transportation investment. SAFETEA maintains the core TEA-21 financial 
structure, while moderating the wide swings in program levels that 
resulted from the RABA mechanism.
    The total size of the program is and will continue to be a matter 
of debate. As that debate progresses, it should not be permitted to 
cloud a meaningful and necessary discussion of the many programmatic 
reforms contained in SAFETEA.
    The following are the major programmatic elements of the 
Administration's proposal to reauthorize the Nation's surface 
transportation program:

Creating a Safer Transportation System
    President Bush and this Administration are committed to fostering 
the safest, most secure national transportation system possible, even 
as we seek to enhance mobility, reduce congestion, and expand our 
economy. These are not incompatible goals. Indeed, it is essential that 
the Nation's transportation system be both safe and secure while making 
our economy both more efficient and productive.
    While formulating the Department's reauthorization proposal, the 
Federal Highway Administration and NHTSA came together on a different 
approach to addressing the Nation's substantial highway safety 
problems. Under that approach, States would receive more resources to 
address their own, unique transportation safety issues; would be 
strongly encouraged to increase their overall safety belt usage rates; 
and would be rewarded for performance with increased funds and greater 
flexibility to spend those funds on either infrastructure safety or 
behavioral safety programs.
    SAFETEA establishes a new core highway safety infrastructure 
program, in place of the existing Surface Transportation Program safety 
set-aside. This new program, called the Highway Safety Improvement 
Program, will more than double funding over comparable TEA-21 levels. 
In addition to increased funding, States would be encouraged and 
assisted in their efforts to formulate comprehensive safety plans.
    In an attempt to make our grant programs more performance-based, we 
have proposed a major consolidation of NHTSA's Section 402 safety 
programs. Two important elements of this revised Section 402 are a 
General Performance Grant and a Safety Belt Performance Grant. The 
Safety Belt Performance Grant rewards States for passing primary safety 
belt laws or achieving 90 percent safety belt usage rates in their 
States. Any State that receives a Safety Belt Performance Grant for the 
enactment of a primary safety belt law is permitted to use up to 100 
percent of those funds for infrastructure investments eligible under 
the Highway Safety Improvement Program. Also, States can receive 
additional grants for improving their safety belt use rates. Any State 
that receives a General Performance Grant for the achievement of 
various other safety performance measures is permitted to use up to 50 
percent of those funds for activities eligible under the new Highway 
Safety Improvement Program.
    Overall, this groundbreaking proposal offers States more 
flexibility than they have ever had before in how they spend their 
Federal-aid safety dollars. It would reward them for accomplishing 
easily measurable goals and encourage them to take the most effective 
steps to save lives. It is exactly the kind of proposal that is needed 
to more effectively tackle the tragic problem of highway fatalities.
    SAFETEA also provides increased funding for commercial vehicle 
safety and research programs in order to enhance the quality, 
stability, continuity, and uniformity of State commercial vehicle 
safety and enforcement programs. In addition, our proposal expands and 
improves safety auditing of ``new entrant'' motor carriers.

Simplifying Programs by Expanding State and Local Flexibility and 
        Improving Project Delivery
    The President and I strongly believe that Federal transportation 
programs must be simpler. This belief is manifested in two types of 
proposals that appear throughout SAFETEA: 1) those that increase State 
and local flexibility and 2) those that seek to increase the efficiency 
of transportation project delivery.
    As the successes of ISTEA and TEA-21 have shown, State and local 
decisionmakers have the greatest capability to address State and local 
transportation problems. SAFETEA continues this principle and expands 
upon it. The Federal Government should facilitate and enable State and 
local transportation decisionmakers, but it is also in a position to 
bring multiple States to the table in addressing regional issues, and 
to take a proactive lead in areas of national concern.
    The President and I believe that we can and must protect our 
environment while improving the efficiency of transportation project 
delivery, consistent with the President's Executive Order on 
Environmental Stewardship and Transportation Infrastructure Project 
Reviews.
    SAFETEA eliminates most discretionary highway grant programs and 
makes these funds available under the core formula highway grant 
programs. States and localities have tremendous flexibility and 
certainty of funding under the core programs. Unfortunately, 
congressional earmarking has frustrated the intent of most of these 
discretionary programs, making it harder for States and localities to 
think strategically about their own transportation problems.
    SAFETEA also establishes a new performance pilot program under 
which States can manage the bulk of their core formula highway program 
funds on a performance basis, cutting across the programmatic lines by 
which the Federal-aid highway program is normally structured. Under the 
pilot program, States would work with the Department to develop and 
meet specific performance measures that reflect both State and national 
interests.
    Public transportation programs would undergo a significant 
restructuring under SAFETEA in an effort to make them more effective 
and responsive to customer and grantee needs. Under that restructuring, 
Federal Transit Administration (FTA) programs would fall under three 
major areas:
    <bullet>  Urbanized area formula grants, which would include the 
current formula grants as well as formula Fixed Guideway Modernization 
funding;
    <bullet>  Major Capital Investments, which would broaden the 
current New Starts program to include non-fixed guideway corridor 
improvements, such as Bus Rapid Transit; and
    <bullet>  State-Administered Programs, including the Rural, Elderly 
and Disabled, Job Access and Reverse Commute, and New Freedom 
Initiative programs. The Job Access and Reverse Commute and New Freedom 
Initiative programs would be supported through flexible formula grants 
to the States.
    As with the highway program, the restructuring of FTA programs 
includes shifting discretionary grant programs to formula programs and 
merit-based funding programs. Funds from the heavily earmarked bus 
discretionary program will be shifted to four different areas: (1) the 
Urbanized area formula program; (2) the Rural formula program; (3) the 
newly expanded New Starts program; and (4) Performance incentive 
grants. Consistent with the bill's strong overall customer orientation, 
SAFETEA also proposes a new performance incentive program that rewards 
increased transit ridership.
    SAFETEA will give communities the flexibility to choose less 
expensive major transit investment alternatives, while ensuring that 
all projects meet New Starts financial and project justification 
criteria. This is accomplished by:
    <bullet>  Expanding the New Starts program to include non-fixed 
guideway corridor-based transit systems;
    <bullet>  Eliminating the $25 million New Starts funding threshold, 
making all projects seeking New Starts funds subject to the evaluation 
criteria established in law; and
    <bullet>  Simplifying the evaluation process for projects 
requesting less than $75 million in New Starts funds.
    SAFETEA also would promote independence and opportunity by 
enhancing programs that serve our most vulnerable populations. For 
example, SAFETEA----

    <bullet>  Increases relative funding levels for rural formula 
programs to assist the 40 percent of rural counties that have no public 
transportation, especially since one-third of residents in all rural 
communities are transportation-disadvantaged;
    <bullet>  Implements the transportation provisions of the 
President's New Freedom Initiative by creating a stable and reliable 
source of funding to States for community-based solutions that address 
the unmet transportation needs of persons with disabilities;
    <bullet>  Makes the Job Access and Reverse Commute program a stable 
and reliable source of formula funds in every State to help meet the 
employment-related transportation needs of welfare recipients and other 
low income individuals. Currently, JARC is a heavily earmarked 
discretionary grant program;
    <bullet>  Sustains the Elderly and Persons with Disabilities 
formula program to help meet the needs of these transportation-
disadvantaged individuals; and
    <bullet>  Ensures a more coordinated and cost-effective approach to 
meeting the needs of transit-dependent persons by (1) requiring 
communities to develop a local prioritized project plan to serve 
elderly persons with disabilities and low-income individuals, which 
must be honored by States as they make decisions about suballocating 
State-administered funds; and (2) making mobility management an 
eligible expense.
    We all know that it takes far too long to take a transportation 
project from concept to completion, and this Administration is 
committed to streamlining this process. Projects that were cutting edge 
while in the concept stage too often end up turning into ``catch-up'' 
projects after years of delay. The Department has made great strides in 
addressing those delays related to environmental review, including 
better coordination during the environmental review process, and other 
improvements that have resulted from implementing the President's 
Executive Order on Environmental Stewardship that was issued last fall. 
However, certain legislative changes are necessary. In the 
environmental review area, SAFETEA provides a menu of solutions, all of 
which should help reduce the time it takes for a sponsor to deliver a 
transportation project. These include:

    <bullet>  Strengthening the provisions of current law that 
establish timeframes for resource agencies to conduct environmental 
reviews and make decisions on permits;
    <bullet>  Improving the linkage between the transportation planning 
and project development processes;
    <bullet>  Simplifying the processing of Categorical Exclusion 
approvals;
    determinations as to whether a possible project alternative is 
feasible and prudent;
    <bullet>  Resolving the current overlap between Section 106 of the 
National Historic Preservation Act and ``section 4(f)'';
    <bullet>  Establishing an exemption for the Interstate Highway 
System as an historic resource, unless the Secretary deems an 
individual element worthy of protection under the National Historic 
Preservation Act. The Advisory Council on Historic Preservation and the 
Federal Highway Administration are working to achieve the objective of 
this section through an administrative exemption, using a provision of 
the regulations that implement Section 106. If we are able to make 
progress toward such an administrative solution, we will advise 
Congress that this additional legislation is no longer needed.
    <bullet>  Providing for timely resolution of outstanding legal 
disputes by establishing a 6-month statute of limitations for appeals 
on the adequacy of projects' environmental impact statements and other 
environmental documents; and
    <bullet>  Expanding the ability of States to provide Federal-aid 
highway funds to resources agencies to expedite the environmental 
review process.

    While making the environmental review process more efficient, 
SAFETEA also offers important proposals to protect and enhance the 
environment. Those proposals include:

    <bullet>  Revising the CMAQ program to better address the new air 
quality standards;
    <bullet>  Continuing a major emphasis on improving public 
transportation;
    <bullet>  Revising the High Occupancy Vehicle (HOV) lane provisions 
to encourage the use of cleaner and more fuel-efficient vehicles;
    <bullet>  Encouraging the active consideration and implementation 
of context-sensitive design principles and practices in all federally 
aided transportation projects; and
    <bullet>  Establishing a new Transportation, Energy, and 
Environment program to carry out a multi-modal energy and climate 
change research program.

    Each year, there are over 900 million visits to national parks, 
forests, and wildlife refuges. Through our Federal Lands Highways 
program we provide funding to maintain and responsibly improve access 
to these areas. Because a substantial maintenance backlog has built up 
in our system of park roads and parkways, we are proposing a 
significant funding increase for the Park Road and Parkways Program. 
Three hundred million dollars would be authorized for fiscal year 2004, 
and a total of $1.890 billion would be authorized over the 6-year 
period, to improve these roads. And, in support of the President's 
National Parks Legacy Project, a new Federal Lands Transit Program 
would be established.
    The transportation planning process has become overly burdensome as 
well. To address this problem, SAFETEA proposes the following:

    <bullet>  Combining the long-range metropolitan transportation plan 
and shorter term Transportation Improvement Program into a single 
document;
    <bullet>  Aligning the transportation and air quality planning 
horizons for purposes of transportation conformity; and
    <bullet>  Creating a single set of requirements applicable to both 
highway and public transportation planning.

Making the Federal Transportation Program Smarter
    The President has urged every Federal agency to be more results-
oriented, guided not by process but performance. In the context of 
transportation, that means: using Federal surface transportation 
programs to increase the efficiency with which people and goods move 
throughout the transportation system; expanding innovative financing 
options; enhancing operational capacity; rewarding grantees that meet 
important, measurable goals; promoting a seamless system in which 
different transportation modes are efficiently connected; and 
increasing oversight and accountability to ensure large Federal 
investments are being protected.
    Recent estimates indicate that Import/Export Freight Tonnage could 
double by 2020 and Domestic Freight Tonnage could increase by about 70 
percent over that same period. International trade now comprises over 
25 percent of the U.S. Gross Domestic Product and is expected to rise 
to one-third in less than 20 years. The days when trade issues could be 
ignored as irrelevant to overall U.S. wealth creation are long gone.
    Ensuring efficient global supply chains therefore becomes of 
paramount importance for the world economy as manufacturing industries 
respond to a growing goods trade through the implementation of just-in-
time manufacturing. Moreover, end products are increasingly comprised 
of component parts being shipped from all over the world. As a result, 
the container, by far the most popular means to transport cargo, takes 
on heightened significance.
    Through the implementation of sophisticated logistics policies to 
manage massive numbers of containers, an inventory management 
revolution is currently taking place that we must be very careful to 
protect and promote.
    The goal of linking production decisions to the shifting pace of 
consumer demand that seemed elusive just 20 years ago is suddenly very 
attainable. With it comes the even more elusive hope of smoothing out 
business cycles. The ability to actually move freight quickly across 
various modes of the transportation system, however, is the linchpin of 
this revolution. The benefits attributable to dramatically lower 
inventory costs and increased liquidity for businesses that do not need 
to spend capital on unused inventory can be severely compromised by an 
inefficient transportation system.
    Although carriers and shippers are by and large private entities, 
their financial health is inextricably linked to the health of public 
transportation infrastructure. As a result, cooperation between the 
private sector and government must be improved through an increase in 
public-private partnerships. The United States, with the most vibrant 
and dynamic private sector in the world, is unique in its lack of 
private sector involvement in transportation infrastructure. In 
addition to improving the overall condition of the Nation's surface 
transportation network, SAFETEA specifically targets the capacity and 
efficiency of the Nation's freight system by:
    <bullet>  Establishing a National Highway System (NHS) set-aside to 
fund highway connections between the NHS and intermodal freight 
facilities, such as ports and freight terminals;
    <bullet>  Expanding Surface Transportation Program (STP) 
eligibility to include freight connector projects;
    <bullet>  Continuing the Transportation Infrastructure Finance and 
Innovation Act of 1998 (TIFIA) and allowing rail freight projects to 
qualify for TIFIA credit assistance;
    <bullet>  Lowering the TIFIA program's project threshold from $100 
million to $50 million; and
    <bullet>  Expanding the availability of tax-exempt private activity 
bonds to include highway projects and freight transfer facilities.
    While virtually every other industry in the world has gone through 
a technological revolution, transportation still lags behind in the 
area of technology deployment. Our proposal continues to foster the 
research, development, and implementation of Intelligent Transportation 
Systems technologies but places a much greater emphasis on using these 
technologies to improve the performance and operation of transportation 
systems and motor vehicles in a way that directly benefits 
transportation customers.
    These technologies can be particularly effective in the 
implementation of innovative demand management strategies. SAFETEA 
provides more resources to expand capacity, but also provides new tools 
to States and localities to manage existing capacity more rationally. 
Our proposal would allow States to establish user charges on Federal-
aid highways, including the Interstate System, to improve these 
facilities. It would also allow States to permit Single Occupancy 
Vehicles (SOVs) on HOV lanes, so long as time-of-day variable charges 
are assessed on SOVs for such access.
    Despite their critical role in the surface transportation system, 
intercity buses have been largely a ``forgotten mode.'' SAFETEA 
addresses this anomaly by establishing requirements to improve 
intercity bus access to significant intermodal facilities. Our proposal 
also authorizes a $425 million grant program to fund capital 
improvements related to such access.
    Evasion of Federal fuel taxes is a serious and growing problem that 
requires an equally serious Federal response. This has been, I know, a 
major concern of Congress. SAFETEA reduces legal loopholes and 
dedicates more resources to a collaborative governmentwide enforcement 
effort. If we are successful in curbing fuel tax evasion, it has the 
potential to increase resources for investment in the transportation 
system.
    Last, but certainly not least, our proposal strengthens stewardship 
of Federal funds without treading on State prerogatives or creating red 
tape. Increased accountability will ensure that every dollar spent will 
yield the maximum benefit in terms of lives saved, reduced congestion 
or increased mobility. These proposals include:
    <bullet>  Requiring that project management plans and annual 
financial plans be submitted for all Federal-aid projects costing $1 
billion or more;
    <bullet>  Requiring that annual financial plans be prepared for all 
projects receiving $100 million or more in Federal-aid funds;
    <bullet>  Establishing minimum cost-estimating standards in order 
to provide more reliable and consistent project cost expectations;
    <bullet>  Strengthening the Department's suspension and debarment 
policies to prevent contractors from continuing to defraud the 
government; and
    <bullet>  Allowing States to share in monetary recoveries from 
Federal fraud cases.
    This legislative proposal builds upon the principles, values, and 
achievements of ISTEA and TEA-21, yet recognizes that there are new 
challenges to address. We urge Congress to reauthorize the surface 
transportation programs before they expire on September 30, 2003. Any 
delay would cause uncertainty and likely reduce infrastructure 
investment at the State and local levels at a time when such investment 
is particularly critical.
    Finally, let me return to the subject of safety. For the past year 
and a half this Department, with the critical and timely help of this 
committee, has dedicated itself to improving transportation security 
for Americans. Faced with the scourge of terrorism, our Department 
responded by creating unprecedented partnerships with the private 
sector, Congress, interest groups, and Federal, State, and local 
agencies. Together we succeeded in decreasing the dangers of terrorism 
through new and better technology, more personnel, improved laws, and 
increased education.
    We are going to do the same thing with car crashes. We cannot 
ignore the deaths of 43,000 Americans each year and the thousands more 
who are injured. This year, we are going to take the same passion, call 
on similar partnerships, and build the same record of success through 
enforcement, education, and engineering. Why? Because it is the right 
thing to do--and we have the will and the ability to do it.
    Last year, Congress gave my Department 36 mandates to improve 
transportation security. I gave the people in my Department one. My 
mandate was to find a way to meet every one of the 36 congressional 
mandates. They did.
    Now I have given my Department another mandate: Dramatically reduce 
the number of Americans killed and injured by car crashes.
    If we succeed, hundreds, perhaps thousands, of lives will be saved 
and serious injuries reduced each year. And the futures of thousands of 
our fellow citizens will be better secured. It is a mandate that I ask 
this committee and this Congress to join our Department and this 
Administration in achieving.
    Thank you, again, for giving me the opportunity to testify, and I 
look forward to working with Congress to pass this legislation.

                                 ______
                                 
    Responses of Hon. Norman Y. Mineta to Additional Questions from 
                            Senator Jeffords

    Question 1. The Administration's bill authorizes funding for 
surface transportation--$247 billion for highway and transit programs 
for 6 years. With this relatively modest growth in funding over TEA-21, 
the Administration had to make some difficult choices in how to best 
fund the core highway programs. Could you explain how the 
Administration decided what levels and increases to propose for the 
core highway programs? For example, why does CMAQ see a reduction of 
over $340 million in fiscal year 2004 compared to fiscal year 2003? Why 
does this program only recover its fiscal year 2003 funding levels 
after fiscal year 2005 and only grow to $1.6 billion in 2009?
    Response. The overall funding level for programs funded from the 
Highway Account of the Highway Trust Fund was based on the following 
principles: (1) No increases to highway user taxes; (2) redirecting to 
the Highway Account of the Highway Trust Fund the 2.5 cents per gallon 
of the gasohol tax currently deposited in the General Fund; (3) 
maintaining a link between Highway Account receipts and program levels; 
(4) drawing down the balance of the Highway Account to a prudent level 
that can be maintained. This approach established the resources 
available each year to fund the core highway formula and other 
programs.
    SAFETEA would reduce the number of discretionary grant programs and 
redirect the resources that would have otherwise funded such programs 
to the core programs. SAFETEA creates a new performance based core 
safety program with significantly higher funding than the current 
safety set-aside within the existing Surface Transportation Program. We 
consciously chose to maintain the relative balance among the remaining 
core programs. Over the 6-year authorization period, the remaining core 
programs each would grow at about 9 percent compared to their TEA-21 
authorization levels. Because of the interaction of the funding levels 
for the core programs and the minimum guarantee calculation, it was 
necessary to stage the increases for each program separately rather 
than having each grow smoothly at the same rate each year.
    It is true that CMAQ funding does fall back some $330 million in 
fiscal year 2004. However, the option exists for other Federal-aid 
highway and transit programs to be used for CMAQ-eligible projects 
through the flexibility provisions of existing laws that support the 
transfer of funds among programs. For example, SAFETEA proposes $46 
billion in transit funding, which could be available to help offset the 
shortfall in the first year. Statutes demand that CMAQ funds be 
invested only in projects that contribute to air quality. However, 
other funding programs, like the much larger Surface Transportation 
Program, may be invested in many such endeavors if the State and 
metropolitan planning organization so desire.

    Question 2. During our hearing process, we heard that 
transportation project costs are increasing. We have all read the 
newspaper stories or seen the television exposes about highway project 
costs spiraling way over budget. SAFETEA requires project management 
plans and annual financial plans for all Federal-aid projects costing 1 
billion dollars or more. It also requires annual financial plans for 
all projects receiving $100 million in Federal-aid funds. How will 
project management and financial plans help rein in project costs?
    Response. Current law requires financial plans for all Federal-aid 
projects costing $1 billion or more. This requirement has already 
proven to be an effective tool in helping States effectively manage how 
large projects will be financed while considering impacts on other 
transportation projects in their States. It has also placed a spotlight 
on increases in project costs and the origins of such increases. Thus, 
specific efforts can be undertaken to evaluate future actions that may 
increase costs and to address these proactively to minimize or 
eliminate such increases. Financial plans appear to enable States to 
better control cost growth.
    SAFETEA proposes to add a requirement for project management plans 
for all of the $1 billion-plus Federal-aid projects. The project 
management plan lays out a State's proposal for effectively managing 
the scope, costs, schedules, and quality assurance on a project and 
identifies the role of the State DOT leadership in this effort. A clear 
understanding in this regard before construction on a project begins is 
expected to have a significant benefit for controlling cost growth 
during construction.
    The SAFETEA proposal to require the development of financial plans 
for all projects receiving $100 million or more in Federal-aid funding 
is expected to extend to these mid-cost range projects the benefits 
that we have already seen on the $1 billion-plus size projects. These 
financial plans would not be submitted for approval or acceptance but 
would be available to the Secretary upon request.
    SAFETEA also calls for the Secretary to develop minimum standards 
for estimating project costs. Many of the problems concerning cost 
growth are related to project estimates, from the early planning phase 
through the construction. We expect that better estimating will lead to 
far less fluctuation in costs throughout the project development 
process. Further, SAFETEA will require the Secretary to periodically 
review the State's practices for estimating project costs, awarding 
contracts, and reducing project costs. States will also be required to 
determine that subrecipients of Federal funds have sufficient 
accounting controls and project delivery systems.

    Question 3. The Administration's bill proposes changes to Section 
4(f) protections, changing the role of resource managers and public 
involvement in the decisionmaking process. Yet virtually no major 
transportation project has been stopped by Section 4(f) lawsuits in 
recent decades. Why is a statutory change required in this well-settled 
area of law? Are there best practices in implementation of Section 4(f) 
that might be more widely adopted under current law?
    Response. We do not view the law on Section 4(f) as being well 
settled, but as continually evolving over the past few decades.
    Early cases, originating with the Supreme Court's decision in 
Overton Park v. Volpe, 402 U.S. 402 (1971), provided a very strict 
interpretation of Section 4(f). In Overton Park, the court established 
a high standard for compliance with Section 4(f), holding that the 
Secretary may only reject an avoidance alternative if it would present 
``unique problems'' or require costs or community disruption of 
``extraordinary magnitude.''
    This standard was stringently applied in subsequent cases. For 
example, in Louisiana Environmental Society v. Coleman, 537 F.2d 79 
(5th Cir. 1976), the Fifth Circuit determined that displacements of 
homes and businesses were not ``unusual'' factors in highway 
construction. Therefore, the Court found that the Secretary erred in 
rejecting an alternative as imprudent, even though it would have 
displaced 377 single family homes, 1508 persons, 21 businesses and two 
churches, in order to avoid building a bridge that would take only 18 
acres of air space and less than one acre of lake bottom of a 9,000 
acre lake (thus the lake surface would remain essentially the same). 
The Court reasoned that, for the statute to have meaning, Congress must 
have intended for ``prudent'' to mean more than a balancing of 
advantages and disadvantages. This means that the Secretary could not 
consider that the overall values of the recreational lake at issue 
would not suffer to any significant degree, nor could he compare the 
relatively small adverse effects to the lake with the huge community 
impacts associated with an avoidance alternative. The Secretary could 
only consider whether the lake would be affected and whether there were 
any alternatives that could avoid such impacts. (Even though, after 11 
years of court proceedings, we ultimately won this case on other 
grounds, the Court's holdings relating to prudence is still good law in 
the Fifth Circuit, and continues to limit the discretion of the 
Secretary in reflecting costly avoidance alternatives.) See also Druid 
Hills Civic Association v. FHWA, 772 F.2d 700 (11th Cir. 1985), which 
expressly adopted the Fifth Circuit's approach in Louisiana 
Environmental Society; and Stop H-3 Association v. Brinegar, 533 F.2d 
434 (9th Cir. 1976), where the Ninth Circuit found that even an 
alternative that presented a ``safety risk of some magnitude'' did not 
pose a ``unique problem'' that warranted the Secretary's finding that 
it was imprudent.
    However, more recent cases, beginning with Eagle Foundation v. 
Dole, 813 F. 2d 798 (7th Cir. 1987), have interpreted Section 4(f) and 
the Overton Park decision less stringently. In Eagle Foundation, 
plaintiffs challenged the routing of a segment of highway through a 
wildlife reserve and a historic farm. The Seventh Circuit held that, in 
determining what is prudent, the Secretary's ``inquiry calls for 
judgment, balancing, and for the practical settlements of disputes on 
which reasonable people will disagree,'' and that a ``prudent judgment 
is one that takes into account everything important that matters.'' The 
Court noted that the Supreme Court's use of the term ``unique 
problems'' in Overton Park was merely for emphasis, and was not 
intended to replace ``prudent.'' The Court further concluded that the 
harm caused by an alternative could be aggregated in determining 
whether it is prudent: ``It would be imprudent to build around the park 
if the Secretary were convinced that the aggregate injuries caused by 
doing so exceeded those caused by reducing the size of the park.'' The 
Court characterized the Secretary's inquiry as ``whether it is worth $8 
million to build around the [4(f) property] in light of the other 
benefits and drawbacks of each course of action'' and stated that ``The 
absolute comparison-Is it worth $8 million to avoid Napoleon Hollow-is 
what matters.'' 813 F.2d at 808. The Court ultimately upheld the 
Secretary's conclusion that the aggregate costs of the alternatives-
including safety concerns, endangerment of eagle roosting sites, and an 
additional cost of at least $8 million-were sufficient reason to find 
them imprudent. See also Hickory Neighborhood Defense League v. 
Skinner, 910 F.2d 159 (4th Cir. 1990), where a similar balancing test 
was used to determine that the cumulative adverse impacts of the 
avoidance alternative-i.e., impeding access to two hospitals, routing 
through a quiet residential neighborhood, traffic operational 
difficulties due to sharp turns and inadequate cross-walks-made it 
imprudent; and see Committee to Preserve Boomer Lake Park v. Skinner, 4 
F.3d 1543 (10th Cir. 1993), where the Tenth Circuit describes the term 
``prudent'' as involving a ``common sense balancing of practical 
concerns.''
    This evolving case law has meant that different legal standards are 
applicable in different areas of the country. In the Fifth, Ninth or 
Eleventh Circuits, the older, more stringent case law still applies to 
the Secretary's decisions. However, in the Fourth, Seventh and Tenth 
Circuits, the Secretary may apply a balancing approach in making a 
Section 4(f) determination. The disparity in these court decisions has 
made it difficult to find a workable national standard to use in 
reaching determinations of whether an alternative is prudent and 
feasible, and has created uncertainty regarding the appropriate 
standard of law to apply. In order to establish more national 
uniformity, this provision would clarify factors the Secretary shall 
consider in making section 4(f) determinations. The factors that we 
have selected are consistent with the factors considered in the more 
recent cases that have taken a balancing approach in evaluating Section 
4(f) determinations.
    The fact that not many recent Section 4(f) cases have actually 
stopped highway projects merely means that Federal transportation 
agencies have been correctly applying the applicable 4(f) standards. 
However, complying with Section 4(f)-particularly in areas where the 
more stringent interpretations of Section 4(f) apply results in 
significant delays in project development. (Based on a study 
commissioned by FHWA, we found that projects involving Section 4(f) 
issues took on average about five to 7 months longer to complete than 
other projects.) In addition, even when the transportation decision is 
upheld, Section 4(f) lawsuits have in the interim resulted in 
significant project delays.
    FHWA continues to solicit and publicize best practices for 
expediting the full spectrum of environmental processes from our 
division offices, legal staff, and State and local partners through our 
website devoted to Streamlining. During 2001, recent 4(f) innovations 
highlighted include a new programmatic 4(f) evaluation for projects 
that result in ``net benefits'' for the protected resource, be it 
parkland, wildlife refuge, or historic site, and a programmatic 
agreement that allows the Ohio DOT to determine applicability of 
Section 4(f) to a particular case. Another programmatic 4(f) evaluation 
for historic roads is under development. The FHWA held a series of 
meetings among the division leadership and the legal staff to identify 
additional issues in implementing Section 4(f) and to suggest creative 
solutions.
    Unfortunately, the innovative approaches identified for 
implementing Section 4(f) address very limited applications and don't 
go far enough in eliminating duplications between the Section 4(f) and 
106 processes. Nor do such creative approaches avoid conflicts between 
resolutions of adverse effect negotiated under the Section 106 process 
to the satisfaction of all parties, including the State Historic 
Preservation Officers and other preservation advocates, and the outcome 
sometimes forced by the inflexibility of Section 4(f). And ultimately, 
innovative solutions must still stay within the bounds of the law; the 
strict language of the statute and of some of the court decisions 
continue to limit the types of innovative approaches that we can try.

    Question 4. Please describe the resources and the guidance that 
your agency is going to provide in fiscal year 2004, assuming the 
budget is satisfied, to States and communities to help them demonstrate 
conformity with the PM<INF>2.5</INF> standard?
    Response. U.S. DOT and EPA have worked closely in providing 
technical assistance to areas to address conformity and transportation 
air quality issues. In anticipation of the number of new areas 
designated nonattainment for the first time that have no previous 
conformity experience, U.S. DOT and EPA, have embarked on a number of 
activities to prepare areas for this challenge:

  1. Revise transportation conformity regulations--U.S. DOT is working 
    closely with EPA to revise the EPA's conformity rule for the 
    implementation of the new ozone and fine particulate standards. 
    EPA's goal is to complete the rulemaking process before April 15, 
    2004, the anticipated date upon which EPA will finalize the new 
    ozone nonattainment designations. We believe this will allow newly 
    designated nonattainment areas to fully utilize the 1-year 
    conformity grace period in meeting conformity requirements.
  2. Continue existing training courses--U.S. DOT has developed a well-
    received basic transportation conformity training course. The 
    course was offered 6 times during fiscal year 2002. The course 
    offerings were attended by about 230 people representing both 
    public (Federal, State, and local governments) and private sectors 
    of both transportation and air quality disciplines. In fiscal year 
    2003 and 2004, U.S. DOT anticipates offering this training course 
    through the National Transit Institute in about 10 cities. A number 
    of workshops and tailored seminars also have been provided by our 
    field resource centers, primarily focusing on emissions modeling, 
    transportation conformity, and the CMAQ program. In addition, FHWA 
    will continue to provide training in MOBILE6, EPA's current 
    emissions factor model, in fiscal year 2004.
  3. Provide new training opportunities--FHWA's National Highway 
    Institute will be launching 2 new training courses in fiscal year 
    2004 which will be very helpful to areas in preparing for their 
    conformity analysis. The courses are: Estimating Regional Mobile 
    Source Emissions and The Implication of Air Quality Planning on 
    Transportation.
  4. In May 2002, FHWA launched a Transportation Conformity Community 
    of Practice (CoP) website to allow for sharing of best practices, 
    free exchange of ideas and discussions on topics related to 
    conformity among practitioners. The CoP website can be accessed at: 
    (http://www.fhwa.dot.gov/environment/aqupdate/index.htm).

    Question 5. A recent GAO report revealed that, by a significant 
margin, air quality officials fear that reducing the frequency of 
conformity determinations for transportation plans and programs under 
the Clean Air Act will have a negative effect on the States' ability to 
attain clean air standards. The report also reveals an EPA statement 
that nearly half of conformity lapses between 1997 and 2002 were due to 
insufficient time or staff resources or administrative and technical 
difficulties.
    Did you factor this information into your decision whether to alter 
conformity deadlines in the Administration's bill, and what does your 
bill do to address staffing and resource issues within the resource 
agencies at the State or Federal level?
    Response. In the GAO report entitled ``Federal Planning 
Requirements for Transportation and Air Quality Protection Could 
Potentially Be More Efficient and Better Linked,'' survey results 
showed that between 30 percent to 40 percent of State air quality 
planners responding to GAO's survey supported the proposal to require 
less frequent updates of the transportation plan or the Transportation 
Improvement Program (TIP) while close to 40 percent were not sure or 
had no opinion and about 30 percent of them did not support this 
change. When asked if the proposals would have a negative effect on 
their ability to meet air quality standards, only about 30 percent of 
air quality planners said they thought that less frequent updates of 
the transportation plan or TIP could have a negative effect.
    During the course of SAFETEA development, the Department conducted 
a number of outreach sessions with various stakeholders and considered 
other information such as the MPO survey conducted by the SEPW staff 
and MPOs' conformity implementation experience shared directly with us. 
Our stakeholders indicate that opportunities remain to improve the 
transportation conformity process and to strengthen the linkages 
between the transportation and air quality planning processes. One of 
the concerns raised among transportation agencies (even some air 
quality agencies agreed) was that transportation plans and State 
implementation plans (SIPs) are not synchronized with one another due 
to different planning horizons and update frequencies. This sometimes 
causes ``lapses'' in conformity, often disrupting the transportation 
funding process. While transportation plans have very long planning 
horizons and have to be updated frequently, most air quality plans have 
comparatively shorter planning horizons and are updated less 
frequently. Our stakeholders indicate that conformity lapses have 
occurred because areas could not complete the complex, comprehensive 
transportation planning and conformity processes within the required 
timeframes, even though they met their emissions budgets. Data 
collection, model development, public outreach, and consensus building 
can all take a considerable amount of time and resources. MPOs also 
face other daily challenges of ever-increasing congestion, 
transportation needs due to economic growth, protection of water 
quality and other environmental resources, efficient freight 
management, safety, and security. Many MPOs expressed the frustration 
that the transportation conformity process is driving the 
transportation planning process. So instead of fulfilling the original 
intent of transportation conformity of ensuring planned transportation 
activities to be consistent with the area's clean air goal, 
transportation agencies are spending their limited resources to ``chase 
the conformity clock'' and paying less attention to other important 
planning elements such as considering alternative land uses, and 
developing new analytical tools.
    Many of our stakeholders have suggested bringing the planning 
horizons and frequency of updates of both the transportation plans and 
air quality plans much closer together. Some have suggested a shorter 
planning horizon, and less frequent updates, while others have 
suggested a longer air quality planning horizon.
    Based on the above findings, the Administration proposes the 
following conformity-related changes in SAFETEA:

  1. Combine metropolitan long-range transportation plans and 
    transportation improvement programs into a single transportation 
    plan. A primary objective is to ensure better consistency between 
    what has been known as the metropolitan long-range transportation 
    plan and the identification/prioritization of specific 
    transportation projects/project phases into what has been known as 
    the TIP. Since current law requires the TIP to be consistent with 
    the long-range transportation plan, the rationale behind this 
    proposed change is to reduce the number of actions or products 
    generated by the metropolitan transportation planning process, such 
    as those related to plan/program development or revision, public 
    involvement, and fiscal constraint. This will require only one 
    conformity determination for the plan, instead of separate 
    conformity determinations for transportation plans and TIPs.

  2. Limit transportation conformity to the first 10 years of the 
    transportation plan, the latest year in which the SIP contains a 
    motor vehicle emissions budgets, or the completion date of a 
    regionally significant project, if the project requires approval 
    before the subsequent conformity determination, whichever is 
    longer. This section was added to better integrate the 
    transportation planning and air quality planning processes, and to 
    ensure that the most cost-effective mitigation strategies are 
    incorporated into these processes. This proposal would more closely 
    align the transportation and air quality planning horizons for 
    purposes of transportation conformity. Currently, transportation 
    conformity must be determined for the entire 20-year planning 
    horizon of metropolitan long-range transportation plans. On the 
    other hand, air quality SIPs usually cover a much shorter timeframe 
    (10 years or less). Nevertheless, long-range transportation plans 
    must conform to these SIPs for the full 20 years of the plan. This 
    mismatch in timeframes does not provide for an integrated planning 
    process in the out-years to select the most cost-effective 
    strategies for controlling emissions, nor does it allow for the 
    consideration of emissions reduction strategies across different 
    sources of emissions.
  SAFETEA proposes to re-define the transportation planning horizon for 
    purposes of conformity to be the longer of: (a) the first 10 years 
    of the metropolitan Transportation Plan; (b) the latest year in the 
    air quality SIP that contains a motor vehicle emissions budget; or 
    (c) the completion date of a regionally significant project that 
    requires approval before the next conformity determination.
  In practice, this means that for areas with SIP planning horizons of 
    less than 10 years (which is the case for most areas), 
    transportation conformity determinations would cover a minimum of 
    10 years. In cases where air quality agencies develop a longer-term 
    SIP with emissions budgets that extend beyond 10 years, the 
    conformity determination would cover the corresponding, longer time 
    period. This approach would ensure that a coordinated and 
    integrated transportation and air quality planning process is 
    utilized in developing the SIP motor vehicle emissions budgets and 
    in determining transportation conformity. This provision also is 
    intended to encourage the development of longer-term SIPs in areas 
    that anticipate extended air quality problems. The SAFETEA proposal 
    also recognizes that MPOs may desire to extend their conformity 
    analyses to include certain transportation projects with completion 
    dates that may extend beyond the minimum timeframe. For example, if 
    a project sponsor wanted an approved environmental document for a 
    proposed regionally significant project that would not be completed 
    for 15 years, the Transportation plan conformity analysis would 
    need to cover the 15-year period so that the proposed project's 
    emissions would be reflected in a Transportation Plan conformity 
    determination prior to the Federal approval of the NEPA document.

  3. Require a regional emissions analysis for the last year of the 
    transportation plan, for informational purposes only. SAFETEA 
    section 6001(a) adds a new section 5203(g)(4) to title 49, U.S.C., 
    and contains a proposal for regional emissions analysis to be 
    performed for the last year of the metropolitan Transportation 
    Plan, assuming the conformity analysis is not performed for the 
    entirety of the Transportation Plan. These analyses are intended to 
    be informational only and serve as input into future updates of the 
    air quality SIP or the Transportation Plan. If this analysis were 
    to indicate that there are potential long-term air quality issues, 
    such issues could be more effectively addressed through an 
    integrated transportation and air quality planning process and 
    future updates of the air quality SIP and/or metropolitan 
    Transportation Plan.

  4. Revise the required frequency of transportation plan updates and 
    conformity determinations from three to 5 years, except when the 
    MPO chooses to update the plan more frequently or changes to the 
    SIP trigger a new conformity determination as provided for in the 
    conformity rule. The proposed legislation encourages (and provides 
    sufficient time to develop) comprehensive Transportation Plans that 
    consider a diverse array of issues, while giving the MPOs and State 
    DOTs discretion in updating Transportation Plans more frequently 
    than the proposed 5-year timeframe, if dictated by changing 
    regional or State issues. Any major change to the Transportation 
    Plan within the 5-year update cycle, however, will result in a new 
    conformity determination. In addition, SAFETEA would retain the 18-
    month conformity ``triggers'' of the current transportation 
    conformity rule associated with SIP actions, i.e., a conformity 
    determination on the Transportation Plan is required if a related 
    SIP action occurs. So an MPO could only go 5 years without updating 
    its conformity determination on the transportation plan if there 
    are no major changes to the transportation plan or to 
    transportation related provisions of an air quality plan during the 
    5-year period. Together these factors will ensure that 
    transportation plans remain in conformity with air quality plans, 
    thereby not compromising air quality goals.
  To address the staffing and resource issues, SAFETEA (section 1505) 
    establishes a planning capacity initiative, a $20 million per year 
    program, to strengthen metropolitan and statewide transportation 
    planning practices and process including the integration of 
    environment and planning. The goal of this program is to improve 
    public ability to respond to transportation challenges in 
    metropolitan areas through sharing of information and good 
    practices, peer-to-peer exchange, and other technical assistance, 
    training and education programs.

    Question 6. In his State of the Union Address, the President called 
for over $1 Billion for hydrogen research. SAFETEA contains $54 Million 
for hydrogen research. What happened to the rest of the President's 
proposal?
    Response. In his State of the Union Address, President Bush 
recognized our need to reduce America's dependence on foreign oil. For 
nearly half a century, transportation has accounted for about one-
fourth of total U.S. energy use and currently accounts for two thirds 
of U.S. oil consumption. The development of a marketable hydrogen 
vehicle, as the President has proposed, will greatly reduce the 
nation's dependence on foreign oil. We will accomplish this mission by 
developing technology and infrastructure for commercially viable 
hydrogen fuel cells to power cars, trucks, homes and businesses free of 
air pollution or greenhouse gases. Today, more than ever, we must 
pursue a clean, safe, and secure energy future.
    Although the Department of Transportation plays a vital role in the 
development of a marketable hydrogen vehicle, much of the current 
research is at a very basic level, with a focus on hydrogen storage, 
fuel cell dependability, and size or weight issues. The Department of 
Energy conducts this basic research on hydrogen energy; DOT is involved 
in applying, demonstrating, and deploying the new technology. DOT is 
also responsible for the safe transportation of hydrogen, regardless of 
how it is transported, and so will play a large role in developing the 
codes and standards, and promoting safe infrastructure necessary to 
support a hydrogen economy. Because most of the initial work will be in 
basic research, the majority of the funding for the President's 
Hydrogen Initiative is included in the energy bills currently before 
Congress.

    Question 7. Section 1103 of SAFETEA includes a provision to add new 
language to Section 104 of title 23. Subsection (r) would provide 
funding, up to $14,000,000 in fiscal years 2007 and 2008, ``for the 
preferred option determined by a study for highway access near the 
Executive Office complex.'' Please explain this provision.
    Response. Section 330 of the Fiscal Year (FY) 2003 DOT 
Appropriations Act provided $11.1 million (prior to the .65 percent 
rescission) of which $6.1 million was designated for streetscape and 
security improvements on Pennsylvania Avenue in front of the White 
House, Jackson Place, and Madison Place. The remaining $5 million was 
designated for a transportation study to address traffic problems in 
the immediate vicinity of the White House. The study will develop 
transportation alternatives in response to the street closings and 
restrictions in the vicinity of the White House and Executive Office of 
the President complex.
    Section 1103(d) of SAFETEA would provide $41 million over the 
authorization period for the preferred option determined in accordance 
with the National Environmental Policy Act (NEPA) upon completion of 
the transportation study discussed above. The funds would be used to 
finalize transportation actions in accordance with NEPA and carry out 
preliminary engineering, preliminary and final design, and other pre-
contract award activities in preparation for project implementation. 
These activities are projected to run through fiscal year 2010. 
Construction would not begin until sometime after the SAFETEA 
authorization period.

                                 ______
                                 
    Responses of Hon. Norman Y. Mineta to Additional Questions from 
                              Senator Reid

    Question 1. According to the Department of Transportation, the 
population living in nonattainment areas under the Clean Air Act ozone 
and PM<INF>2.5</INF> standards will increase in the next few years, 
possibly two-fold. Given this analysis, I expected to see a significant 
increase in CMAQ funding so that hard-pressed counties will have the 
resources to comply with the law.
    Given this extreme need, can you explain your decision not to 
significantly increase the CMAQ funding?
    Response. Over all SAFETEA funding level for programs funded from 
the Highway Account of the Highway Trust Fund was set based on the 
resources available from the Highway Account. The resources available 
were determined based on the following principles: (1) No increases to 
highway user taxes; (2) redirecting to the Highway Account of the 
Highway Trust Fund the 2.5 cents per gallon of the gasohol tax 
currently deposited in the General Fund; (3) maintaining a link between 
Highway Account receipts and program levels; (4) drawing down the 
balance of the Highway Account to a prudent level that can be 
maintained.
    The Administration wanted to maximize State flexibility by 
concentrating funding in the core programs. One aspect of this was to 
reduce the number of discretionary grant programs and redirect the 
resources that would have otherwise funded such programs to the core 
programs, including CMAQ. We consciously chose to maintain the relative 
balance among the remaining core programs of TEA-21. Over the 6-year 
authorization period, the remaining core programs each would grow at 
about 9 percent compared to their TEA-21 authorization levels. Because 
of the interaction of the funding levels for the core programs and the 
minimum guarantee calculation, we had to stage the increases for each 
program separately rather than having each grow smoothly at the same 
rate each year.
    Our SAFETEA proposal includes a CMAQ funding level that rises 9.1 
percent over the life of the bill when compared to TEA-21 
authorizations. This is commensurate with increases projected for other 
major Federal-aid programs including Interstate Maintenance, 9.2 
percent; National Highway System, also 9.2 percent; Bridge, 9.1 
percent; and the Surface Transportation Program, 9.0 percent. Given the 
difficult funding choices put before the Department with a growing list 
of national priorities, we considered 9 percent as reality-based 
growth.
    While the program does fall back some $330 million in fiscal year 
04 to provide funding for the new Safety Program, we should point out 
that other Federal-aid highway and transit programs can participate in 
many CMAQ-eligible projects through the flexibility provisions of 
existing laws that support the transfer of funds among programs. For 
example, SAFETEA proposes $46 billion in transit funding, which could 
be available to help offset the shortfall in the first year. By law, 
CMAQ funds may be invested only in projects that contribute to air 
quality. However, other funding programs, like the much larger Surface 
Transportation Program, may be invested in many such endeavors if the 
State and MPO so desire.

    Question 2. In the Administration's bill, you propose to continue 
the State Infrastructure Bank Pilot Program. Currently, this pilot 
program applies the requirements of title 23 to all projects financed 
in whole or in part or assisted by the State Infrastructure Bank. Does 
the administration's reauthorization proposal maintain that practice?
    Response. The Administration's reauthorization proposal applies 
Federal requirements to all projects assisted by the State 
Infrastructure Bank.

    Question 2(b). Also, several States have expressed interest in 
participating in the State Infrastructure Bank program, including my 
State of Nevada. Can you also please discuss your decision to limit the 
program to no more than five States?
    Response. The Administration wants to maintain a five-State pilot 
similar to the one authorized under the Transportation Equity Act for 
the 21st Century (TEA-21). The applications for this pilot will be 
evaluated based on criteria established by the Secretary which would 
include: the State's ability to provide non-Federal funds to capitalize 
the bank; the existence of State enabling legislation that allows for 
full State Infrastructure Bank participation; the State's strategy for 
encouraging non-Federal repayment sources from project sponsors; the 
amount of Federal funds the State will commit to the bank as a 
percentage of Federal apportionments; the State's eligibility under 
TEA-21; and the State's past experience with a State Infrastructure 
Bank including the TEA-21 pilot program.

    Question 3. The administration's proposal suggests a major change 
to the current Federal lands highway program. This is of particular 
interest to me since 87 percent of Nevada's land is Federal land. One 
proposed change would eliminate the current Public Lands Highways 
discretionary program that funds much of the road work done on Federal 
land in Nevada, replacing it with, among other things a Recreational 
Roads program.
    I noticed the administration has made a concerted effort to do away 
with most discretionary programs. Some of these discretionary programs 
serve an important function, even with earmarks. I am concerned that, 
in an attempt at reform, the administration may be overreaching. I 
think the Public Lands Highway discretionary program is one example.
    How can I be confident that this change to the Federal lands 
program will not adversely affect Nevada?
    Response. SAFETEA calls for a record Federal investment in surface 
transportation, spending over $201 billion on highway and safety 
programs. The proposed elimination of the discretionary categories will 
provide more funding for the ``core'' highway programs. This change 
would give States more flexibility to determine priorities and direct 
funding to those priorities.
    The proposed Recreation Roads category included in SAFETEA will 
provide $50 million for each fiscal year 2004 through 2009. This 
category will provide funding for public roads owned by the U.S. 
Government that provide access to museums, lakes, reservoirs, visitors 
centers, gateways to major wilderness areas, public use areas, 
recreation, and historic sites. Recreation Roads funds would be 
allocated to five agencies as follows:

  -6 percent to Bureau of Reclamation
  -6 percent to U.S. Army Corps of Engineers
  -10 percent to Bureau of Land Management
  -10 percent to Military Traffic Management Command
  -68 percent to Forest Service

    The Secretary, from time to time, may adjust the percentage of 
recreation road funds to each agency. With 87 percent of Nevada being 
Federal lands, this new category will provide additional funds to 
Federal Land Managing Agencies in the State for transportation needs.

    Question 4. The Bureau of Land Management oversees the great 
majority of Nevada's Federal lands. In the past, the Federal Highway 
Administration's relationship with the BLM has not been as effective as 
its relationship with other Federal land resource agencies, especially 
in Nevada. What is being done to improve that relationship?
    Response. The Federal Lands Highway Program (FLHP) was established 
to provide funding for a coordinated program of public roads and 
transit facilities serving Federal and Indian lands. The Bureau of Land 
Management (BLM) did not participate in the FLHP because their roads 
were not considered public roads. The BLM has recently established a 
``public road'' category, which will allow them to participate in the 
FLHP. Under SAFETEA, BLM would receive funds from the Recreation Road 
and Safety categories.

    Question 5. The Federal Highway Administration's 2002 Conditions 
and Performance report estimates the annual Federal investment in roads 
must increase by 17 percent per year simply to maintain the nation's 
existing highway and bridge system. Improving the system will cost 
significantly more. As you have pointed out, safety continues to be an 
urgent concern. In metropolitan areas across the country, congestion 
only gets worse.
    In fact, the administration's proposed funding level for fiscal 
year 2004 is $2 billion below the fiscal year 2003 level. The 
administration's bill will not reach current funding levels until 
fiscal year 2007 and then only with a modest increase. This is simply 
unacceptable.
    This country needs sustained, robust investment in our 
transportation system and the economic stimulus and jobs that 
investment provides.
    Given the pressing needs of our nation's transportation system and 
our struggling economy, can you please explain how our constituents can 
have any confidence in the future condition and performance of our 
surface transportation system given the administration's proposed level 
of investment?
    Response. SAFETEA calls for a record Federal investment in surface 
transportation, spending over $247 billion on highway and transit 
programs from fiscal year 2004 through fiscal year 2009. The 
Administration's proposal marks a 19 percent increase over the 
guaranteed amounts provided in TEA-21. The Federal-aid highway program 
size is set at a level that the expected level of Highway Account 
revenues (from current taxes and the redirection of 2.5 cents per 
gallon of gasohol) can sustain and that will allow the maintenance of 
prudent cash reserves in the Highway Account.
    The ``2002 Status of the Nation's Highways, Bridges and Transit: 
Conditions and Performance'' report to Congress (C&P report) focuses on 
the impacts of investment by all levels of government combined over 20 
years, not just the Federal investment. The report indicates that 
capital investment by all levels of government would need to increase 
by 17.5 percent above base year 2000 levels in order to reach the 
``Cost to Maintain Highways and Bridges'' level. The C&P report also 
indicated that this difference would shrink to 11.3 percent over the 
2001 to 2003 period, due in part to higher Federal funding levels in 
the latter years of TEA-21. Further shrinkage of this ``gap'' will 
depend on the level and types of Federal, State, local government, and 
private highway investment over this period.
    The term ``Cost to Maintain Highways and Bridges'' identified in 
the 2002 C&P report describes a level of investment at which future 
conditions and performance would be maintained at a level sufficient to 
keep average highway user costs from rising above their 2000 levels. It 
thus represents a more ambitious target than simply maintaining the 
physical condition of the infrastructure.
    SAFETEA proposes a sustainable level of infrastructure investment 
that provides funding increases for all core program categories, and 
establishes carefully targeted new programs, including one to address 
immediate improvements in system conditions and operations. SAFETEA 
will protect the American taxpayer's equity in transportation 
infrastructure.

    Question 6. As part of this reauthorization, the administration is 
proposing a new Surface Transportation System Performance Pilot 
program. As you may know, in Nevada, we have done an excellent job of 
maintaining the condition of our National Highway System roads. In 
fact, we have some of the best roads in the country. This did not 
happen by accident. The Nevada State Department of Transportation has 
made tough, informed choices and focused maintenance resources on those 
routes with the highest traffic volume.
    How would this new performance pilot program benefit a State like 
Nevada that has managed its transportation assets well?
    Response. SAFETEA builds upon the vision of ISTEA and TEA-21, 
giving State and local officials even more flexibility to advance their 
own goals for transportation capital investment. Instead of directing 
outcomes from Washington, DC, the Department continues to shift more of 
its focus to giving State and local partners the necessary tools to 
solve their unique problems while still pursuing important national 
goals. Increased flexibility to address individual circumstances, 
needs, and priorities benefits all States.
    One new initiative in flexibility is SAFETEA's proposed performance 
pilot program, which would allow up to 5 pilot States to manage the 
bulk of their core formula highway program funds on a performance 
basis, cutting across the programmatic lines by which the Federal-aid 
highway program is normally structured. Pilot States would work with 
the Department to develop and meet specific performance measures that 
reflect both State and national interests.
    This program gives States more flexibility to make effective 
investments by focusing on program outcomes rather than program 
categories.
    This program is a test, to determine whether allowing States to 
assume certain responsibilities can lead to more efficient execution of 
the Federal-aid Highway Program. No separate funding is provided--it is 
an experiment in the management and use of a State's regular Federal-
aid highway apportionments.
    While this way of doing business may not be an effective tool for 
one State, it could be just the answer for another. Collectively, our 
overall, interconnected surface transportation system and all of its 
users reap the benefits.

    Question 7. I have always been a strong supporter of MAGLEV. I 
think it is a mode of transportation that can bring substantial benefit 
to certain areas of the country. In the past, we have made modest 
investments in the technology to prepare MAGLEV for deployment. Today 
there are regions of the country ready to deploy the technology. 
However, I did not see any mention of MAGLEV in the Administration's 
bill. Can you discuss what you envision as the future of MAGLEV in this 
country and why the administration chose to leave it out of this 
reauthorization proposal?
    Response. Maglev is an exciting technological concept that still is 
in the developmental stage. Investment in maglev implementation may be 
appropriate at some point in the future, but the issue that the 
Administration faced in developing the SAFETEA proposal is whether 
maglev is ready for application to the transportation challenges facing 
this country today. We concluded that it was not. With the exception of 
a relatively short airport shuttle being developed in Shanghai, and 
test facilities in Germany and Japan, our knowledge of maglev is 
derived from paper studies and projections, not from practical 
experience. While even the proponents of maglev agree that construction 
of a relatively short demonstration such as the one underway in China 
will be expensive, we cannot make an informed judgment about the final 
construction and live cycle costs of a maglev system designed to meet 
real transportation needs in everyday revenue service and, thus, how 
investment in maglev would compare to alternative investments designed 
to meet the same transportation needs. Given the limited funding 
available for transportation, and the many legitimate transportation 
needs that are competing for that limited funding, the Administration 
did not believe that maglev was a sufficiently high priority to be 
included in SAFETEA.

                                 ______
                                 
    Responses of Hon. Norman Y. Mineta to Additional Questions from 
                             Senator Carper

Overall Funding Levels
    Question 1. In your testimony, you cite the great impact of the 
transportation system on our economy and overall quality of life. 
Additionally, you cite the many challenges facing our transportation 
system, from maintaining our existing infrastructure to relieving 
growing congestion and providing for huge growth in freight traffic. 
How do we adequately address these challenges given the limited 
resources that SAFETEA proposes?
    Response. SAFETEA is a plan, not just for the amount of Federal 
funding to be spent for surface transportation infrastructure, but for 
the way we will spend the funds. This investment will lead not only to 
safer highway transportation, but also to simpler and smarter delivery 
of Federal highway programs as well. At the Federal level, we will 
address transportation problems of national significance, while giving 
State and local transportation decisionmakers more flexibility to solve 
the unique transportation problems of their communities. New 
flexibilities in infrastructure financing will increase opportunities 
for private-sector investment in highway facilities. Refinements in 
program administration and environmental review processes will make 
project oversight more effective and project delivery more efficient. 
And, we are focusing our transportation research efforts on improving 
today's highway system performance, and anticipating and developing 
options to deal with future challenges.
    SAFETEA calls for a record Federal investment in surface 
transportation, spending over $247 billion on highway and transit 
programs from fiscal year 2004 through fiscal year 2009--a 19 percent 
increase over the guaranteed amounts provided in TEA-21. This is a 
sustainable level of infrastructure investment that provides funding 
increases for all core program categories, and establishes carefully 
targeted new programs, including the Infrastructure Performance and 
Maintenance and Freight Gateways programs to specifically address 
congestion and freight issues. However, it is essential to consider the 
many programmatic reforms contained in SAFETEA, as well as the total 
size of the program.

    Question 2. Generating 47,500 jobs for every $1 billion in 
investment, transportation investment would seem to be one of the best 
economic stimulators available. Would you agree? If so, shouldn't we be 
spending more, not less, on transportation in these difficult economic 
times?
    Response. Funding levels in SAFETEA reflect the difficult choices 
currently facing both the Administration and Congress, seeking a 
balance in addressing domestic needs, meeting our international 
responsibilities, and protecting against terrorist attacks at home. 
Still, SAFETEA calls for a record Federal investment in surface 
transportation, spending over $247 billion on highway and transit 
programs from fiscal year 2004 through fiscal year 2009. The 
Administration's proposal marks a 19 percent increase over the 
guaranteed amounts provided in TEA-21. The proposed levels provide for 
a sustainable highway program, responsible program increases over the 
6-year reauthorization period, and continue the traditional linkage of 
highway spending and trust fund revenues.
    The Administration opposes raising gas taxes at this time when many 
American families that depend on their vehicles, and businesses that 
rely on affordable ground transportation, are facing challenging 
economic circumstances. Tax cuts, rather than increased spending, are 
proposed to stimulate the economy. Therefore, the Federal-aid highway 
program size is set at a level that the expected level of Highway 
Account revenues (from current taxes and the redirection of 2.5 cents 
per gallon of gasohol) can sustain and that will allow the maintenance 
of prudent cash reserves in the Highway Account.
    Within today's constrained budget environment, SAFETEA makes a very 
substantial commitment to ensuring a safe and efficient Federal 
transportation system for all Americans. It will help improve 
transportation safety; enhance national security; maintain and improve 
our transportation infrastructure, and increase its operational 
capacity; reduce environmental degradation; and improve the quality of 
life for all our citizens.

Rail
    Question 1. While I applaud the Administration for including 
several new programs and initiatives that provide resource to States 
for intermodal investment, including freight and passenger rail, 
overall, SAFETEA offers the status quo on rail development by simply 
extending the current Railroad Rehabilitation and Infrastructure 
Financing (RRIF) loan program and reauthorizing ``with some changes'' 
the Swift Act High Speed Rail planning and research grant programs. Do 
you believe these programs are adequate to address the many rail needs 
our States have?
    Response. Rail programs have traditionally been the subject of 
their own separate authorization legislation and not incorporated into 
the legislative antecedents of SAFETEA. The Administration believes 
this is appropriate and will be addressing the major rail needs through 
separate legislative proposals for the reauthorization of the Federal 
Rail Safety Act and for Intercity Passenger Rail Service.

    Question 2. How will the Administration's plan for Amtrak fit with 
SAFETEA? Are there specific programs in SAFETEA that you envision 
dovetailing with the Administration's proposal?
    Response. The Administration's proposal for the future of intercity 
passenger rail service will be included in separate legislation that 
will soon be transmitted to Congress. One aspect of that proposal will 
be an enhanced role for the States in making fundamental decisions 
about intercity passenger rail services important to them. SAFETEA 
proposes amending the existing planning provisions of the Swift Rail 
Act to authorize Federal financial assistance to the States to permit 
them to undertake the analyses necessary for them to make informed 
decisions with regard to intercity passenger rail and to identify where 
such service deserves their support.

    Question 3. In your testimony, you discuss letting the States have 
maximum flexibility to make transportation investments. Why doesn't 
this flexibility include funding Amtrak services?
    Response. The transportation needs currently eligible under the 
programs being reauthorized in SAFETEA exceed the available resources. 
The Administration does not wish to exacerbate this situation by adding 
Amtrak and related programs which, in some versions of Senate 
legislation could exceed $4.5 billion per year, to the list of projects 
competing for those limited resources. Intercity passenger rail and 
Amtrak will be the subject of a separate legislative proposal.

Transit
    Question 1. The investment levels for transit recommended by 
SAFETEA defer the necessary investment needed to meet the system 
preservation requirements identified in DOT's own ``Conditions and 
Performance Report.'' Won't deferring these expenses simply add to the 
cost of maintaining and improving our transit services in the years to 
come?
    Response. SAFETEA proposes to make $46 billion available over the 
6-year authorization period, a 28 percent increase over the $36 billion 
under TEA-21. We believe this level of Federal investment will keep us 
on target to maintain--and even improve--the conditions and performance 
of our Nation's transit assets.
    The DOT's Conditions and Performance (C&P) Report makes long-term 
projections of investment needs and reports a single ``average annual'' 
investment requirement from all sources for the entire 20-year period 
(2001-2020). The 2002 Report estimates that the average capital 
investment needed to maintain transit conditions and performance is 
$14.8 billion annually.
    Using the average annual investment requirement ($14.8 billion) 
reported in the C&P Report, a total of $88.6 billion of transit 
investment would be required to maintain transit conditions and 
performance over the 6-year reauthorization period. This figure 
includes investments from all sources--Federal, State, and local.
    Historically and most recently in 2001, State and local governments 
moneys account for approximately half of all capital investments in 
transit. Assuming that this share is maintained, the Federal investment 
in transit that would be required for the 6-year reauthorization period 
would be $44.3 billion--less than the $46 billion provided by SAFETEA. 
Thus, the $46 billion investment proposed by SAFETEA would, in fact, 
permit us to maintain transit conditions and performance.

    Question 2. SAFETEA proposes the elimination of the guaranteed 
funding/firewall protection of the general fund contributions to the 
Mass Transit Account of the Trust Fund. Why is this and doesn't this 
directly counter your previous statement that ``The minimum guarantees 
and the budgetary firewalls have created confidence among grantees 
regarding Federal funding . . . [and are] . . . an extremely important 
aspect of program delivery for State and local officials.''
    Response. Transit programs are currently the only Federal programs 
that receive guaranteed general funds. We are confident that transit 
programs can effectively compete for general funds with other programs 
if they are not included within budgetary firewalls. Furthermore, given 
the potential for changes in national priorities (like those we saw 
after September 11, 2001), it did not seem appropriate or advisable to 
tie the hands of future Congresses or future Presidents with general 
fund firewalls. Funds paid into the Mass Transit Account are intended 
to be used solely for a specific purpose and are appropriately 
guaranteed.

    Question 3. Where needs significantly exceed available funding as 
in our current transit program, the ability to shift money from one 
need to another is no substitute for additional resources into the 
program. While I am supportive of State flexibility, I think it needs 
to be accompanied by adequate resources. Could eliminating specific 
transit program funding categories and pitting competing programs 
against one another without adding more resources lead to lower funding 
for important, but perhaps less popular or glamorous, programs? How 
would we prevent this?
    Response. In a constrained fiscal environment, flexibility can help 
maximize the use of available resources. We have not, however, 
eliminated specific transit program funding categories, with the 
exception of the bus capital program, for which the funding has been 
incorporated into the urbanized and nonurbanized area formula programs 
to increase those stable and predictable sources of capital funding for 
buses and bus facilities, and into the New Starts program to provide 
capital investment for major non-fixed guideway corridor improvements 
such as Bus Rapid Transit. Funds for Fixed Guideway Modernization are 
allocated on the same basis as under current law but are incorporated 
into the urbanized formula program to provide grantees with more 
flexibility. We have retained the flexibility provided in current law 
to transfer funds between the urbanized and nonurbanized programs.
    In the State-administered programs, we have retained the existing 
formula for the Elderly and Persons with Disabilities program, made the 
Job Access and Reverse Commute Program a formula administered by the 
States, and proposed the New Freedom Initiative as a State-administered 
formula program to support transportation enhancements for persons with 
disabilities beyond those required by the Americans with Disabilities 
Act. The funds allocated to the States for each of these programs must 
be used for the intended purpose. The requirement under each of these 
State programs that projects be selected from locally developed 
coordinated human service/public transit plans will ensure that local 
communities examine the whole range of community transportation needs 
and existing transportation providers and services. The States will 
then competitively allocate the program funds to fill gaps identified 
by local communities in both urbanized and rural areas.
    We believe that formularizing these transit programs promotes sound 
decisionmaking at the local and State level so that the ``important, 
but perhaps less popular or glamorous'' projects can be considered on 
their merits.

    Question 4. Why does SAFETEA allocate more resources to the highway 
program over transit, thus upsetting the historic 4 to 1 ratio between 
the two programs when we see equally high demand for both types of 
investment? Shouldn't we grow both programs equally? Or perhaps subject 
the highway programs to a 50 percent non-Federal match to spread 
Federal highway funding to more beneficiaries in the face of such high 
demand? If that makes sense for transit, why not consider it for 
highways?
    Response. I believe that the allocation of resources between 
transit and highway funding in SAFETEA is quite similar to the 
situation in TEA-21. For the 6-year period covered by SAFETEA, the mass 
transit program authorizations constitute 18.4 percent of the total 
authorizations. Under the 6-year period covered by TEA-21, mass transit 
constituted about 18.8 percent of total authorizations and 17.4 percent 
of the guaranteed funding.
    I would like to clarify the Administration's proposal to decrease 
the maximum Federal New Starts share to 50 percent. The New Starts 
match provision actually limits the portion of the project that can be 
funded from New Starts funds to 50 percent. The total Federal share may 
still be up to 80 percent. For instance, a New Starts project could be 
funded as follows:
    <bullet>  50 percent with Federal New Starts funds
    <bullet>  30 percent with other Federal funds, including certain 
highway (typically CMAQ or STP funds) formula funds
    <bullet>  20 percent non-Federal funds
    The formula programs for both highways and transit would continue 
to have the same match rate: 80 percent Federal--20 percent non-
Federal.
    It is important to distinguish the New Starts program from highway 
and transit formula programs. The New Starts program is a discretionary 
program and provides funds over and above the formula funds each State 
receives. Changing the New Starts share to 50 percent reflects the 
realities of the competitive nature of the program. The Federal Transit 
Administration has long encouraged project sponsors to ``overmatch.'' 
In evaluating New Starts applications, one of the statutory criteria is 
the local financial commitment and a sponsor's proposal to overmatch 
can enhance a project's standing in the competition for a full funding 
grant agreement. The overall Federal New Starts share today is 49 
percent.
    The current effective Federal share for highway capital investment 
in the U.S. is only 40 percent, with many highway projects being funded 
entirely by State and local government resources. The comparable 
Federal share for transit capital projects is 47 percent.

Conformity, Environmental Streamlining, and CMAQ
    Question 1. SAFETEA proposes several changes to the current 
conformity planning process. Can you discuss these and address claims 
that these changes might reduce accountability of transportation 
planners for air quality?
    Response. During the course of SAFETEA development, the Department 
conducted a number of outreach sessions with various stakeholders and 
considered other information such as the MPO survey conducted by the 
SEPW staff and MPOs' conformity implementation experience shared 
directly with us. Our stakeholders indicate that opportunities remain 
to improve the transportation conformity process and to strengthen the 
linkages between the transportation and air quality planning processes. 
One of the concerns raised among transportation agencies (even some air 
quality agencies agreed) was that transportation plans and State 
implementation plans (SIPs) are not synchronized with one another due 
to different planning horizons and update frequencies. This sometimes 
causes ``lapses'' in conformity, often disrupting the transportation 
funding process. While transportation plans have very long planning 
horizons and have to be updated frequently, most air quality plans have 
comparatively shorter planning horizons and are updated less 
frequently. Our stakeholders indicate that conformity lapses have 
occurred because areas could not complete the complex, comprehensive 
transportation planning and conformity processes within the required 
timeframes, even though they met their emissions budgets. Data 
collection, model development, public outreach, and consensus building 
can all take a considerable amount of time and resources. MPOs also 
face other daily challenges of ever-increasing congestion, 
transportation needs due to economic growth, protection of water 
quality and other environmental resources, efficient freight 
management, safety, and security. Many MPOs expressed the frustration 
that the transportation conformity process is driving the 
transportation planning process. So instead of fulfilling the original 
intent of transportation conformity of ensuring planned transportation 
activities to be consistent with the area's clean air goal, 
transportation agencies are spending their limited resources to ``chase 
the conformity clock'' and paying less attention to other important 
planning elements such as considering alternative land uses, and 
developing new analytical tools.
    Many of our stakeholders have suggested bringing the planning 
horizons and frequency of updates of both the transportation plans and 
air quality plans much closer together. Some have suggested a shorter 
planning horizon, and less frequent updates, while others have 
suggested a longer air quality planning horizon.
    Based on the above findings, the Administration proposes the 
following conformity-related changes in SAFETEA:
  1. Combine metropolitan long-range transportation plans and 
    transportation improvement programs into a single transportation 
    plan. A primary objective is to ensure better consistency between 
    what has been known as the metropolitan long-range transportation 
    plan and the identification/prioritization of specific 
    transportation projects/project phases into what has been known as 
    the TIP. Since current law requires the TIP to be consistent with 
    the long-range transportation plan, the rationale behind this 
    proposed change is to reduce the number of actions or products 
    generated by the metropolitan transportation planning process, such 
    as those related to plan/program development or revision, public 
    involvement, and fiscal constraint. This will require only one 
    conformity determination for the plan, instead of separate 
    conformity determinations for transportation plans and TIPs.

  2. Limit transportation conformity to the first 10 years of the 
    transportation plan, the latest year in which the SIP contains a 
    motor vehicle emissions budgets, or the completion date of a 
    regionally significant project, if the project requires approval 
    before the subsequent conformity determination, whichever is 
    longer. This section was added to better integrate the 
    transportation planning and air quality planning processes, and to 
    ensure that the most cost-effective mitigation strategies are 
    incorporated into these processes. This proposal would more closely 
    align the transportation and air quality planning horizons for 
    purposes of transportation conformity. Currently, transportation 
    conformity must be determined for the entire 20-year planning 
    horizon of metropolitan long-range transportation plans. On the 
    other hand, air quality SIPs usually cover a much shorter timeframe 
    (10 years or less). Nevertheless, long-range transportation plans 
    must conform to these SIPs for the full 20 years of the plan. This 
    mismatch in timeframes does not provide for an integrated planning 
    process in the out-years to select the most cost-effective 
    strategies for controlling emissions, nor does it allow for the 
    consideration of emissions reduction strategies across different 
    sources of emissions.
  SAFETEA proposes to re-define the transportation planning horizon for 
    purposes of conformity to be the longer of: (a) the first 10 years 
    of the metropolitan Transportation Plan; (b) the latest year in the 
    air quality SIP that contains a motor vehicle emissions budget; or 
    (c) the completion date of a regionally significant project that 
    requires approval before the next conformity determination.
  In practice, this means that for areas with SIP planning horizons of 
    less than 10 years (which is the case for most areas), 
    transportation conformity determinations would cover a minimum of 
    10 years. In cases where air quality agencies develop a longer-term 
    SIP with emissions budgets that extend beyond 10 years, the 
    conformity determination would cover the corresponding, longer time 
    period. This approach would ensure that a coordinated and 
    integrated transportation and air quality planning process is 
    utilized in developing the SIP motor vehicle emissions budgets and 
    in determining transportation conformity. This provision also is 
    intended to encourage the development of longer-term SIPs in areas 
    that anticipate extended air quality problems. The SAFETEA proposal 
    also recognizes that MPOs may desire to extend their conformity 
    analyses to include certain transportation projects with completion 
    dates that may extend beyond the minimum timeframe. For example, if 
    a project sponsor wanted an approved environmental document for a 
    proposed regionally significant project that would not be completed 
    for 15 years, the Transportation plan conformity analysis would 
    need to cover the 15-year period so that the proposed project's 
    emissions would be reflected in a Transportation Plan conformity 
    determination prior to the Federal approval of the NEPA document.

  3. Require a regional emissions analysis for the last year of the 
    transportation plan, for informational purposes only. SAFETEA 
    section 6001(a) adds a new 5203(g)(4) to title 49, U.S.C., and 
    contains a proposal for regional emissions analysis to be performed 
    for the last year of the metropolitan Transportation Plan, assuming 
    the conformity analysis is not performed for the entirety of the 
    Transportation Plan. These analyses are intended to be 
    informational only and serve as input into future updates of the 
    air quality SIP or the Transportation Plan. If this analysis were 
    to indicate that there are potential long-term air quality issues, 
    such issues could be more effectively addressed through an 
    integrated transportation and air quality planning process and 
    future updates of the air quality SIP and/or metropolitan 
    Transportation Plan.

  4. Revise the required frequency of transportation plan updates and 
    conformity determinations from three to 5 years, except when the 
    MPO chooses to update the plan more frequently or changes to the 
    SIP trigger a new conformity determination as provided for in the 
    conformity rule. The proposed legislation encourages (and provides 
    sufficient time to develop) comprehensive Transportation Plans that 
    consider a diverse array of issues, while giving the MPOs and State 
    DOTs discretion in updating Transportation Plans more frequently 
    than the proposed 5-year timeframe, if dictated by changing 
    regional or State issues. Any major change to the Transportation 
    Plan within the 5-year update cycle, however, will result in a new 
    conformity determination. In addition, SAFETEA would retain the 18-
    month conformity ``triggers'' of the current transportation 
    conformity rule associated with SIP actions, i.e., a conformity 
    determination on the Transportation Plan is required if a related 
    SIP action occurs. So an MPO could only go 5 years without updating 
    its conformity determination on the transportation plan if there 
    are no major changes to the transportation plan or to 
    transportation related provisions of an air quality plan during the 
    5-year period. Together these factors will ensure that 
    transportation plans remain in conformity with air quality plans, 
    thereby not compromising air quality goals.

    Question 2. I understand that SAFETEA provides a role for air 
quality agencies in the prioritization of CMAQ projects. Is this role 
mandated or is it voluntary? Do you believe having input from air 
quality agencies will help States to select projects that deliver the 
maximum air quality benefits?
    Response. The transportation community values the input of air 
quality agencies in phases of the planning and project development 
processes related to the CMAQ program. Indeed, we have inserted in our 
SAFETEA proposal that ``the Secretary shall encourage States and [MPOs] 
to consult with'' these very organizations. In addition to this 
voluntary role, air quality agencies are an integral part of the 
interagency consultation procedures that drive the transportation 
conformity process.
    State environmental and air quality officials are not strangers to 
highway and transit project development and, along with transportation 
professionals, are able to contribute to the selection of effective 
emission-reducing projects. While transportation planners and other 
officials are best able to assess the full range of project development 
issues, such as project planning, detailed specifications and design, 
scheduling, fiscal programming, and other factors, air quality 
professionals have an important and unique perspective and these 
contributions are valued.

    Question 3. Given SAFETEA's inclusion of the new standards for 
ozone and particulate matter in the CMAQ formula, what are the 
anticipated funding needs for this program? Does SAFETEA envision 
significantly increased CMAQ funding?
    Response. We view the increase in CMAQ funding submitted with our 
SAFETEA proposal as a realistic gain for the program in the midst of 
difficult fiscal choices and mounting national priorities. Spanning the 
life of the SAFETEA bill, the CMAQ program increases more than 9 
percent over TEA-21 authorizations. In addition, the program gains 
considerably from 2005 to 2009, in part to offset the drop in levels 
projected for 2004. We are confident that these increases in CMAQ 
funding-certainly commensurate with the other Federal-aid programs-will 
help areas subject to the new ozone and particulate matter standards 
with planning and implementing emissions-reducing transportation 
projects.

                                 ______
                                 
    Responses of Hon. Norman Y. Mineta to Additional Questions from 
                           Senator Voinovich

    Question 1. SAFETEA proposes a $1 billion a year program to fund 
``ready-to-go'' projects. Would this funding be included under the 
scope of the 90.5 percent minimum guarantee program? Do you propose any 
other changes to the scope of the minimum guarantee program?
    Response. The Infrastructure Performance and Maintenance (IPAM) 
program, a $1 billion per year program designed to fund ready-to-go 
projects, would be included as an element in the calculation of the 
minimum guarantee program under the Administration's SAFETEA proposal. 
Also included would be the Highway Safety Improvement Program (HSIP). 
The HSIP takes the place of the 10 percent safety set-aside from the 
surface transportation program, which is part of the minimum guarantee 
calculation under current law. One program, metropolitan planning, 
would be removed from the calculation of minimum guarantee so that the 
metropolitan planning set-aside may be applied to the minimum guarantee 
program.
    Question 2. Your proposal would establish a pilot program under 
which States could manage a bulk of their core formula highway funds as 
a block grant. Could you explain this proposal in greater detail?
    Response. SAFETEA would establish a new highway pilot program 
intended to test the concept of a performance-based management approach 
in the obligation of Federal funding under the Federal-aid Highway 
Program. Federal-aid highway program funds would continue to be 
distributed among all States (including pilot States under this 
program) according to legislated apportionment formulas. However, under 
this pilot, up to five States could manage the bulk of their core 
formula highway program funds on a systematic, performance basis across 
the programmatic lines by which the Federal-aid highway program is 
normally structured. States would work with the Department to develop 
and meet specific performance measures that reflect both State and 
national interests. This program gives States more flexibility to make 
effective investments by focusing on program outcomes rather than 
program categories. Another benefit of this program is that it would 
authorize the Secretary to assign, and a State to assume, some or all 
of the Secretary's responsibilities under Federal laws or requirements. 
The State would be deemed to be a Federal agency to the extent the 
State is carrying out the Secretary's responsibilities under the 
National Environmental Policy Act (NEPA), title 23 of the United States 
Code, or other Federal law. This program would test whether allowing 
States to assume such responsibilities can lead to more efficient 
execution of the Federal-aid highway program. No separate funding is 
provided. This program is an experiment in the management and use of a 
State's regular Federal-aid highway apportionments.

    Question 3. One of my top transportation projects is the Euclid 
Corridor Transportation Project, a Bus Rapid Transit project in 
Cleveland, Ohio. This is a project that I became involved with well 
over 20 years ago, and I will ride the Euclid Corridor. What changes 
have you proposed to the New Starts Program that would help this 
project proceed to the construction phase?
    Response. In the Annual Report on New Starts for fiscal year 2004, 
the Greater Cleveland Regional Transit Authority's (GCRTA) proposed 
Euclid Corridor Transportation Project (ECTP) was rated ``low'' for 
cost-effectiveness. The ``low'' rating is primarily due to the 
relatively high cost of the project compared to the estimated 
transportation benefits. FTA measures cost-effectiveness by comparing 
the costs of the project against the transportation benefits generated 
by the project. Costs include the sum of: (1) capital costs, annualized 
to an equivalent annual payment over the life of the project; and (2) 
annual operating and maintenance costs. Benefits are the faster travel 
times and other improvements in service characteristics for new and 
existing transit riders, expressed in terms of hours of travel time 
savings. Consequently, the cost-effectiveness measure expresses the 
relative costs and benefits of the project in terms of cost per hour of 
travel time savings.
    FTA is working with the GCRTA to re-evaluate the ECTP with the goal 
of improving the project's cost-effectiveness rating. The re-evaluation 
will consider ways to improve cost effectiveness in three dimensions: 
generating transportation benefits; identifying the likely impacts of 
the project on economic development; and reducing the project's capital 
costs.
    Since several of the Administration's recommendations for the 
reauthorization of the Transportation Equity Act for the 21st Century--
the ``Safe, Accountable, Flexible, and Efficient Transportation Equity 
Act of 2003'' (SAFETEA)--are already part of the project (e.g., the 
ECTP's requested New Starts share is 50 percent), SAFETEA would not 
have a direct impact on the ECTP. However, the cooperative effort 
between the Federal
    Transit Administration and the GCRTA to improve the ECTP's cost 
effectiveness rating via the quantification of potential economic 
development benefits attributable to the project within the Euclid 
Avenue Corridor will help to strengthen the case that the project would 
contribute directly to the area's economic development and 
redevelopment efforts. Moreover, this effort would provide an expanded 
measure of the benefits that would contribute directly to the 
recalculation of a better cost-effectiveness result for the ECTP.

    Question 4. SAFETEA proposes a number of changes to the 
environmental streamlining provisions of TEA-21. With respect to 
timeframes for resources agencies to conduct environmental reviews and 
make decisions, your proposal stops short of establishing specific 
deadlines in law. If mutually agreed upon deadlines cannot be 
established, do you see a need for default deadlines?
    Response. SAFETEA does not establish specific timelines by law 
because it would be setting very arbitrary deadlines that could result 
in more time spent in additional processes when those deadlines where 
not met. The environmental review process for any project may involve 
many other Federal and State agencies, each with their own reviews that 
need to be satisfied. There are so many parameters that could possibly 
be involved in the review process that only become known during a 
thorough scoping process. One size does not fit all for the 
environmental review process for surface transportation projects.

    Question 5. Could you outline the specific changes you purpose to 
Section 106 of the National Historic Preservation Act and Section 4(f), 
which protects public lands? How will these changes expedite the 
project delivery process?
    Response. Section 4(f) was enacted in 1966 during the peak of the 
Interstate highway construction program, and at a time when highway 
construction threatened major urban parks and historic districts. 
Today's highway program is oriented much more toward preservation and 
modernization of existing facilities. We believe that the strict rules 
imposed by Section 4(f) are no longer necessary and in many cases cause 
unwarranted delays in the implementation of critical highway and 
transit projects. SAFETEA proposes to change Section 4(f) in three 
important ways to make it more in line with the impacts of today's 
highway and transit programs and to expedite project delivery:
    <bullet>  First, SAFETEA would clarify the factors for determining 
what is prudent. This change would resolve the current inconsistency in 
court interpretations regarding what is meant by ``prudent'', which has 
made the implementation of Section 4(f) difficult and has sometimes 
resulted in decisions that were not in the public interest. The 
proposed changes would provide clearer guidelines by which to make 
Section 4(f) decisions, reducing deliberations over ``gray'' areas of 
the law and making it easier to conduct a Section 4(f) analysis. It 
would also facilitate internal reviews by setting forth a clear 
standard by which to evaluate the adequacy Section 4(f) determinations.
    <bullet>  Second, SAFETEA would allow the existing Section 106 
process to substitute for the 4(f) process when an agreement is 
reached. This would eliminate duplication between the application of 
Section 4(f) and the Section 106 process, thereby streamlining the 
process.
    <bullet>  Finally, SAFETEA would allow States to use highway funds 
to pay for historic preservation resources in order to expedite the 
process. This would ensure that enough resources are provided to 
carefully consider the impacts of highway and transit projects on 
historic resources, while at the same time expediting the reviews 
required under Section 4(f) and Section 106.

    Question 6. SAFETEA proposes to allow States to assume the 
responsibility of the Secretary for determining whether certain 
activities are categorically excluded from requirements for 
environmental assessments of environmental impact statements. Why did 
the Administration limit this delegation of the Secretary's 
responsibilities to the States to only categorical exclusions and not 
extend the authority to environmental assessments or environmental 
impact statements?
    Response. A ``categorical exclusion'' (CE) is defined in 
regulations as ``a category of actions which do not individually or 
cumulatively have a significant effect on the human environment. . . 
.'' Most surface transportation projects qualify as categorical 
exclusions (e.g., over 91 percent of Federal highway construction 
projects are classified as categorical exclusions). These kinds of 
projects present a low risk of harm to the environment. This section 
would allow some of the Department's responsibilities relating to these 
kinds of projects to be assumed by the State. Delegation of CEs would 
streamline the environmental review process, thereby expediting project 
delivery, without any substantial risk to the environment. Projects 
that do not qualify as a categorical exclusion involve more significant 
risks to the environment, requiring more expertise in evaluating the 
risks and greater interaction with other Federal agencies. We believe 
that those circumstances warrant a continued role by the Department of 
Transportation.
    The pilot program in Section 1801 of SAFTEA does provide for 
delegation of a broader range of responsibilities, including a 
delegation of U.S. DOT's responsibilities relating to other categories 
of environmental reviews under the National Environmental Protection 
Act (NEPA), such as environmental assessments or environmental impact 
statements. This pilot program will give us an opportunity to assess 
the benefits and risks of greater delegation beyond CEs. States and 
other project sponsors already have a significant role in the 
development of highway and transit projects that are not defined as 
CEs. For example, under NEPA, States are permitted to draft the 
environmental impact statement for transportation projects, so long as 
U.S. DOT conducts an independent evaluation. States and other project 
sponsors also play a major role in selecting transportation projects 
through the transportation planning process.

    Question 7. How will the environmental streamlining provisions 
contained in SAFETEA expedite the project delivery process?
    Response. SAFETEA contains several environmental streamlining 
provisions that will expedite the project delivery process:
Section 1602
    <bullet>  Clarifies that the project sponsor has the authority to 
request Federal agencies to cooperate in the establishment of time 
periods for environmental reviews. This will allow project sponsors to 
determine when a time schedule is needed to ensure that project reviews 
and decisionmaking are conducted in an efficient, expeditious manner.
    <bullet>  Gives State Governors the authority to initiate the 
dispute resolution process (in addition to Federal agencies) if 
timetables are not being met or substantive issues are not being 
resolved. This adds another avenue for resolving any impasses that have 
occurred in the project development process.
    <bullet>  Establishes a new statute of limitations of 180 days for 
legal challenges to Federal agencies decisions made in connections with 
the issuance of permits, licenses, or approvals for surface 
transportation projects is established. There is currently no uniform 
statute of limitations that applies to the decisions of Federal 
agencies relating to highway construction and mass transit projects. By 
default, legal challenges relating to highway construction or mass 
transit projects are subject to the general 6-year statute of 
limitations that applies to Federal decisions. This has allowed legal 
challenges to proceed even though they were filed years after Federal 
approvals were granted, and in some cases not until transportation 
projects were well under construction. This new statute of limitations, 
while still providing adequate time for filing a lawsuit, will prompt 
timely resolution of outstanding legal disputes or appeals on the 
adequacy of projects' environmental impact statements and other 
environmental documents, and on all other Federal decisions on 
projects.
    <bullet>  Expands the ability of States to provide Federal-aid 
highway funds to resources agencies to pay for additional resources to 
expedite the environmental review process.
Section 1603
    <bullet>  Simplifies the processing of Categorical Exclusion 
approvals by allowing some of the Department's responsibilities 
relating to these kinds of projects to be assumed by the State. Most 
surface transportation projects qualify as categorical exclusions 
(e.g., over 91 percent of Federal highway construction projects are 
classified as categorical exclusions). These kinds of projects present 
a low risk of harm to the environment. This section would remove the 
Department's involvement in individual project reviews (although 
retaining an oversight role), eliminating an additional layer of review 
and approval. This would streamline the environmental review process, 
thereby expediting project delivery, without any substantial risk to 
the environment.
Section 1604
    <bullet>  As explained more fully above, in response to question 5, 
this section will clarify the legal standard applicable to 
determinations under Section 4(f) as to whether an alternative is 
feasible and prudent; eliminate the current duplication between Section 
4(f) and Section 106; and allow States to use highway funds to pay for 
historic preservation resources in order to expedite the review and 
consultation process.
Section 1607
    <bullet>  Establishes an exemption from Section 4(f) and Section 
106 processes for the Interstate Highway System as an historic 
resource, unless the Secretary applies Section 106 to individual 
elements. If the Interstate System were to be designated as an historic 
property, it is conceivable that every action taken to maintain, 
improve, or upgrade the Interstate System could be considered an 
undertaking subject to review under Section 4(f) and Section 106 of the 
National Historic Preservation Act, which could unnecessarily delay 
needed transportation projects and improvements.
Section 1801
    <bullet>  Establishes a surface transportation system performance 
pilot program pursuant to which the Secretary would be authorized to 
assign, and a State to assume, some or all of the Secretary's 
responsibilities under any Federal law or requirement, including 
environmental laws. Under this pilot program, the Department's 
involvement in individual project reviews could be significantly 
reduced (although it would continue to retain an oversight role), thus 
eliminating an additional layer of review and approval.
Section 1815
    <bullet>  Allows some of the Department's responsibilities relating 
to the transportation enhancements and recreational trails programs, 
established under ISTEA and continued under TEA-21, and the 
transportation and community and system preservation program, 
established under TEA-21, to be assumed by the State. This section 
would reduce the Department's involvement in individual project reviews 
for these types of projects (although retaining an oversight role), 
eliminating an additional layer of review and approval.
Section 6001
    <bullet>  Improves process efficiency by combining the long-range 
metropolitan transportation plan and shorter term Transportation 
Improvement Program into a single document.
    <bullet>  Improves the coordination between the transportation 
planning and project development processes by clarifying the linkage 
between transportation planning and the National Environmental Policy 
Act (NEPA) process. Specifically, it authorizes the use of planning 
information and analyses in appropriate circumstances to facilitate 
streamlining of the NEPA process, and to clarify the manner in which 
planning studies can be utilized in the NEPA process. To the extent 
that the transportation planning process has included procedures 
similar to those required under NEPA, this new subsection will allow 
the U.S. DOT to rely on the studies produced in the planning process.
    <bullet>  Improves process efficiency by aligning the 
transportation and air quality planning horizons for purposes of 
transportation conformity.

                                 ______
                                 
    Responses of Hon. Norman Y. Mineta to Additional Questions from 
                             Senator Baucus

    Question 1. I notice that the TIFIA program will now be expanded to 
include eligibility for private rail projects.
    With such a deficit of funds for highways how can you see fit to 
include eligibility for another mode that does no even contribute to 
the Trust Fund? Did you consider transferring the 4.3 cents freight 
rail fuel tax to the Trust Fund?
    Response. A major feature of our bill is to establish a new Freight 
Gateways program. The purpose of this program is to institutionalize 
freight considerations and needs into the traditional transportation 
development process and increase investments for intermodal 
improvements at our major freight gateways and connectors.
    This program broadens the flexibility of States and metropolitan 
planning organizations in meeting today's complex freight challenges 
through a combination of eligibility changes, innovative finance 
emphasis and targeted investment.
    SAFETEA would expand the capacity and efficiency of the Nation's 
freight system by:

    <bullet>  Dedicating a portion of NHS funds for highway connections 
between the NHS and intermodal freight facilities, such as ports and 
freight terminals;
    <bullet>  Allowing STP funds to be used for publicly owned 
intermodal freight transportation projects that address economic, 
congestion, security, safety, and environmental issues associated with 
freight transportation gateways;
    <bullet>  Expanding TIFIA eligibility to include both public and 
privately owned intermodal facilities, including rail; and
    <bullet>  Expanding the availability of tax-exempt private activity 
bonds to include highway projects and freight transfer facilities.

    We believe that this program, particularly the changes proposed for 
TIFIA, will leverage significant private sector investment to improve 
the movement of freight into and through major trade transportation 
gateways and hubs and to improve the transportation infrastructure that 
connects these gateways to the nation's mainline transportation 
networks. The overall effect will be to relieve highway congestion 
related to high levels of truck traffic. The 4.3 cents per gallon 
Federal fuel tax paid by the railroads goes directly toward paydown of 
the national debt.

    Question 2. In your proposal, there is funding for States for fuel 
tax enforcement measures. I commend you for this. The funding is cut by 
75 percent between fiscal year 2007 and fiscal year 2008. Why is that?
    Response. Our funding proposal for fuel tax compliance is divided 
into several categories. Each fiscal year from 2004 through 2009, there 
is funding set aside for States, intergovernmental enforcement efforts, 
and the Internal Revenue Service (IRS). State and intergovernmental 
enforcement project funding remains constant at $4.5 million and $2 
million, respectively, per fiscal year throughout the life of the 
legislation. The IRS would receive a base amount of $4.5 million per 
year, and additional amounts for startup costs for the development of 
new enforcement tools.
    The majority of the IRS funding will be to support three automated 
systems. The automated fuel tracking system mandated in TEA-21 is 
nearing completion and will be fully operational within a year. 
Operation and maintenance expenses along with some minor updates are 
scheduled for the out years. Funding to complete the system is included 
in the amount of $10.5 million proposed for fiscal year 2004. Costs to 
operate and maintain as well as to provide minor updates are included 
in the proposed funding of $4.5 million for each of the fiscal year 
2005 through 2009.
    The second system focuses on development, operation, and 
maintenance of an electronic data base and registration system for 
pipelines, vessels, and barges, and their operators. The third system 
focuses on the development, operation, and maintenance of an electronic 
data base of heavy vehicle highway use tax payments. These systems 
would be built from the bottom up. The remaining funds proposed for IRS 
use will provide for the startup of these systems. Funding in the 
initial year will get the projects started and on track to move forward 
in the following years.

    Question 3. Why did you abolish the public lands discretionary 
lands program?
    Response. SAFETEA calls for a record Federal investment in surface 
transportation, spending over $201 billion on highway and safety 
programs. The proposed elimination of the discretionary categories will 
provide more funding for the ``core'' highway programs. This change 
would give States more flexibility to determine priorities and direct 
funding to those priorities.

                                 ______
                                 
     Response of Hon. Norman Y. Mineta to Additional Question from 
                             Senator Cornyn

    I was interested to read the Administration's provisions on the 
Corridors & Borders programs to separate them and fund each at $496.5 
million over 6 years. I commend these provisions as a first step to 
make the Corridors & Borders programs more efficient and effective 
tools. As you are well aware, in recent years the majority of the 
funding for these two programs has been congressionally earmarked to 
the ``National Corridor Planning and Development'' side of that 
account.
    Senator Kay Bailey Hutchison and I have begun work on additional 
provisions for these programs. Our ideas include focusing the Corridors 
program to eligible corridors connecting to a border between the U.S. 
and Mexico or the U.S. and Canada. We believe by focusing these 
Corridor projects on areas of increased NAFTA trade, highway dollars 
will be spent more effectively.
    Mexico is our second largest trading partner at $247 billion in 
2000. Trucks make 4.5 million trans-border trips a year through 27 
official crossing points. About 70 percent of all U.S.-Mexico trade 
passes through Texas with the total volume growing by 30 percent a 
year.
    Question. As international trade traffic increases, can you share 
with us other proposals the Administration is considering to address 
the transportation challenges faced by border States?
    Response. The Administration recognizes the potential for 
significant increases in our already large cross-border trade with 
Canada and Mexico during the period covered by SAFETEA.
    In addition to the Border Planning, Operations, and Technology 
Program and the Multi-State Corridor Planning Program (both of which 
are funded at $76.5 million a year in fiscal year 2004 and $84 million 
a year thereafter and both of which are based on TEA-21 programs that 
were funded from a single source at $140 million per year) the 
Department has a number of other proposals to address the noted 
challenges.
    One is the Border Enforcement program under Motor Carrier Safety 
Grants, funded at $32 million in fiscal year 2004, increasing to $36 
million in fiscal year 2009. Funds would go to States that border 
Mexico or Canada to carry out commercial motor vehicle safety programs, 
related enforcement activities, and projects at the border.
    In addition, the Department continues to be involved in a wide 
range of programs with our State partners that include efforts to make 
standards more compatible, improve inspection capabilities and leverage 
our shared resources more efficiently in order to assist the border 
States in accommodating the increased levels of cross-border trade.
    The Department also has a leadership role in a border planning 
coordination program on the southern border and a similar role in a 
border planning coordination program on the northern border. The 
Department created these programs administratively. The two programs 
involve DOT, FHWA, States, other Federal agencies (e.g., GSA, Customs), 
as well as the equivalent agencies in Canada and Mexico.
    The Department also continues to coordinate operations and 
infrastructure improvement programs with the Department of Homeland 
Security.

                                 ______
                                 
    Responses of Hon. Norman Y. Mineta to Additional Questions from 
                             Senator Wyden

    Question 1. Until my home State of Oregon passed the Oregon 
Transportation Investment Act (OTIA), our State was getting to the 
point where it was having a hard time coming up with the State funding 
needed to match the Federal transportation dollars. With declining 
State revenues from the economic downturn and 38 States projecting 
budget deficits, won't it be a problem for a number of States to come 
up with local matching funds for transportation projects, especially if 
Congress were to increase the funding levels in TEA-21 reauthorization?
    Response. Our surface transportation proposal, the Safe, 
Accountable, Flexible, and Efficient Transportation Equity Act of 2003 
(SAFETEA) would provide $201 billion for highway and highway safety and 
$46 billion for public transportation, for a total of $247 billion from 
fiscal year 2004 through fiscal year 2009.
    The State and local share of total transit capital funding averaged 
about 52 percent from 1993 to 2001. A State and local funding share of 
this general size or even lower would be sufficient to meet the 
matching requirements for the Federal transit program proposed in 
SAFETEA. The minimum non-Federal share is 20 percent for most transit 
capital projects.
    Over the past 10 years, the State and local share of total highway 
capital funding averaged about 58 percent. A State and local funding 
share of this general size or even lower would be sufficient to meet 
the matching requirements for the Federal highway program proposed in 
SAFETEA. The minimum non-Federal share is 10 percent for Interstate 
projects and 20 percent for most other projects, although certain 
safety projects are eligible for 100 percent Federal funding.
    Matching requirements for transit and highway programs have 
flexibility provisions built in to help grantees get past any temporary 
cash shortfalls. We know of no case where a grantee has failed to 
obligate transit or highway funds due to a lack of non-Federal match.
    Federal Highway Administration policy currently allows relief for 
States experiencing a temporary shortage of matching funds. Using a 
process called tapered match, a State may receive Federal funds for 100 
percent of the costs incurred on a project up to the Federal share of 
the project. The State share would not be required until the end of the 
project. Since large projects may be under construction for several 
years, the State can request tapered match on the projects that best 
meet its budget needs. The Federal Transit Administration has adopted a 
similar approach. SAFETEA would expand matching flexibility by allowing 
the value of donated services provided by local government employees to 
be credited to the non-Federal share of transportation projects 
receiving funds made available under title 23, U.S.C.

    Question 2. You say in your written testimony that the 
Administration is committed to streamlining the process for moving 
transportation projects from concept to completion and that the 
Administration's SAFETEA proposal would ``strengthen the provisions of 
current law that establish timeframes for resource agencies to conduct 
environmental reviews and make decisions on permits.'' How will those 
provisions be strengthened and how will the timeframes be set? Will 
they be set by transportation officials, by environmental officials or 
jointly?
    Response. Section 1602 of the Safe, Accountable, Flexible, and 
Efficient Transportation Equity Act of 2003 (SAFETEA)--Efficient 
Environmental Reviews for Project Decisionmaking--would replace the 
streamlining provisions of section 1309 of the Transportation Equity 
Act for the 21st Century with for more effective provisions for 
achieving environmental streamlining on highway construction projects.
    First, the new environmental review section would clarify the 
section's dual purpose of expediting project delivery and protecting 
the environment. In addition, provisions would encourage the use of the 
``Enlibra'' principles, as initially developed by the Western Governors 
Association and adopted by the National Governors Association (Policy 
Statement NR-1), to the extent practicable in the development of 
highway construction and public transit projects. Used together, these 
principles establish a sound basis for interaction among Federal, 
State, and local governments and tribes in developing policies and 
making decisions with respect to the environment.
    Second, Section 1602 of SAFETEA would retain the current 
requirement regarding coordinated environmental reviews but would 
clarify that such reviews may apply to a particular project or may 
apply to an entire class of projects or to a program. Section 1602 
would also clarify that local agencies and federally recognized tribes, 
in addition to Federal and State agencies, may participate in memoranda 
of understanding, where appropriate, to establish cooperatively 
developed time periods for review. We expect that these jointly 
developed review timeframes will help maintain project schedules, and 
thus save time and minimize cost increases.
    Third, Section 1602 would clarify that the project sponsor has the 
authority for initiating the coordinated environmental review process 
for projects. In addition, while time periods would be established by 
the Secretary and the affected agencies, the establishment of time 
periods would occur only when requested by the project sponsor. The 
latter change gives a greater role to project sponsors in developing 
the time periods. Since negotiating time periods can itself take a 
substantial amount of time, Section 1602 would provide project sponsors 
with the flexibility to request establishment of time periods only 
where such time periods would be most effective. Section 1602 would 
also clarify that the Secretary may extend the time for review upon any 
good cause shown, including project delays that may not have been due 
to environmental reviews.
    In addition to our legislative proposal, the Department of 
Transportation will continue to track and report the amount of time 
that it takes to complete the environmental review process on federally 
assisted highway construction and public transit projects.
    The Department also continues to work with our Federal partners to 
implement Executive Order 13274, Environmental Stewardship and 
Transportation Infrastructure Project Reviews, to promote responsible 
environmental stewardship and common sense streamlining in 
transportation projects.

    Question 3. Mr. Secretary, you say in your written testimony that 
you and the President have made saving lives an essential priority for 
reauthorization of TEA-21. Oregon's Highway 22 in Polk County is one of 
the more hazardous highways anywhere. Reader's Digest called it the 
``Highway of Death''. What will the Administration's SAFETEA proposal 
do to reduce fatalities on Highway 22 and other dangerous highways?
    Response. SAFETEA more than doubles the funds available to improve 
the safety of dangerous roads like Highway 22. It creates a new core 
safety program that is performance-based and data-driven. It provides 
States support for improving their crash data systems to help them 
target their investments to the highest payoff safety needs where the 
greatest reductions in fatalities can be achieved. Safety improvement 
priorities would be set through a State strategic highway safety plan 
that takes a comprehensive approach to safety based on a collaborative 
process that relies on input from major State and local safety 
stakeholders. SAFETEA's safety program provides States more flexibility 
to address their highest safety needs and provides funding for safety 
improvements on all public roads.
    Highway 22 with its high fatality and injury rates has already been 
identified as one of the top safety priorities in Oregon. Under the new 
``core'' safety program, improvements to Highway 22 would remain a high 
priority based on crash statistics alone. Seven of the highway segments 
in Polk County are significantly above the State average for similar 
rural non-freeway State highways. The segment from the connection with 
Highway 150 eastbound to the Marion County Line has a crash rate nine 
times the State average.
    The Oregon Department of Transportation has provided a crash 
history of Highway 22 (see attached) and has identified a number of 
future actions to improve safety within the Highway 22 Corridor. The 
safety improvements identified would be eligible under SAFETEA, 
including the extension of medians to prevent cross-over crashes, left-
turn refuges at major intersections, construction of grade-separated 
crossings, and installation of rumble strips and durable striping to 
help drivers avoid run-off-the-road crashes. In addition, SAFETEA 
significantly increases Federal funding for these improvements. The 
State's ability to finance critical safety improvements to Highway 22 
and other dangerous roads would be greatly enhanced by a safety 
``core'' program similar to SAFETEA's.

                                 <all>

</pre></body></html>
